<html>
<title> - FINDING SOLUTIONS FOR VETERAN HOMELESSNESS IN SOUTHERN CALIFORNIA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









   FINDING SOLUTIONS FOR VETERAN HOMELESSNESS IN SOUTHERN CALIFORNIA

=======================================================================

                             FIELD HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, JANUARY 20, 2016

              FIELD HEARING HELD IN RIVERSIDE, CALIFORNIA

                               __________

                           Serial No. 114-50

                               __________

       Printed for the use of the Committee on Veterans' Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
         

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-016                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                   
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
















                            C O N T E N T S

                              ----------                              

                      Wednesday, January 20, 2016

                                                                   Page

Finding Solutions For Veteran Homelessness In Southern California     1

                           OPENING STATEMENTS

Honorable Brad Wenstrup, Chairman................................     1
Honorable Mark Takano, Ranking Member............................     2
Honorable Raul Ruiz, Member......................................     4
Honorable Norma Torres, U.S. House of Representatives, 35th 
  Congressional District; California.............................    23

                               WITNESSES

Mr. Emilio Ramirez, Development Director, City of Riverside......     6
    Prepared Statement...........................................    35
Ms. Carrie Harmon, Principal Development Specialist, County of 
  Riverside......................................................     8
    Prepared Statement...........................................    40
Mr. Stephen Peck, M.S.W., President & CEO, U.S. VETS.............    10
    Prepared Statement...........................................    43
Mr. Son Nguyen, Co-founder & President, Veterans Association of 
  Real Estate Professionals......................................    12
    Prepared Statement...........................................    44
Mr. Jose Rivera, Student, University of California, Riverside....    15
    Prepared Statement...........................................    51

                       STATEMENTS FOR THE RECORD

Mike Michaud.....................................................    52
Stephen Peck.....................................................    56

 
   FINDING SOLUTIONS FOR VETERAN HOMELESSNESS IN SOUTHERN CALIFORNIA

                              ----------                              


                      Wednesday, January 20, 2016

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
Riverside City College, AD122 of the Administrative Building, 
4800 Magnolia Ave., Riverside, California, Hon. Brad Wenstrup 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Wenstrup and Takano.
    Also Present: Representatives Ruiz and Torres.

          OPENING STATEMENT OF BRAD WENSTRUP, CHAIRMAN

    Mr. Wenstrup. Well, good afternoon, everyone. And the 
Subcommittee will come to order.
    I want to thank you all for joining us for this field 
hearing of the Subcommittee on Economic Opportunity of the U.S. 
House Committee on Veterans' Affairs.
    My name is Brad Wenstrup, and not only is it my pleasure to 
serve as the Congressman for the Second District of Ohio, which 
includes portions of Cincinnati and southern Ohio, but also to 
serve as the Chairman of this Subcommittee.
    Before we begin, I want to say what a pleasure it is to be 
here at Riverside City College, and I thank my colleague and 
Ranking Member of the Subcommittee, Congressman Mark Takano, 
for hosting us here today. It is great to work with a 
thoughtful legislator like Mark. He continues to put the goals 
of the veterans first and to provide economic opportunity for 
veterans. And I would say that the people of the 41st District 
of California are lucky to have him as their Congressman.
    Today, we are here to examine and highlight programs and 
benefits that help combat veteran homelessness not only here in 
southern California but nationwide. There has been significant 
progress made in reducing homelessness among veterans, and 
several municipalities are able to celebrate the fact that they 
have eliminated veteran homelessness.
    While this is certainly great news, as funding for homeless 
veteran programs at VA and the Department of Labor continue to 
reach record levels, we must ensure that we have a true and 
accurate picture of how this money is being spent.
    The Homeless Veterans' Reintegration Program, HVRP, 
administered by the Department of Labor, is designed to provide 
homeless veteran providers with grant funds to provide job 
training programs for homeless veterans. And while HVRP has 
been determined to be one of the most successful job-training 
grant programs in the Federal Government, I know there is 
always room for improvement.
    For example, as it was mentioned in Mr. Peck's testimony 
with U.S.VETS, homeless veterans that are currently using HUD-
VASH vouchers are not eligible to receive services under HVRP. 
And while I believe it is important to provide veterans with 
short-term housing through VA's HUD-VASH housing voucher 
program, it is even more critical that they also receive 
comprehensive wraparound services like those provided by HVRP 
that help them find employment.
    Without helping veterans find meaningful employment through 
HVRP, we are only providing them temporary housing, but we are 
not setting them up for long-term and sustainable success. That 
is why I was proud this past summer when the House passed my 
bill H.R. 474, which would expand eligibility for HVRP to all 
of the veterans in HUD-VASH housing and would also reauthorize 
the program for 5 years.
    I want to thank Mr. Takano and the rest of our colleagues 
for their support in passing this bill, and I hope the Senate 
sends it to the President's desk very shortly.
    Once again, I am very happy to be here this afternoon. I am 
interested in hearing from our witnesses about ways to improve 
HVRP and other suggestions they may have about how to improve 
homeless veteran programs and services nationwide.

    [The attachment appears in the Appendix]

    Mr. Wenstrup. At this time I ask unanimous consent that our 
colleagues, Dr. Ruiz from California's 36th District, and 
hopefully Ms. Torres from California's 35th District, be 
allowed to sit at the dais and ask questions. Hearing no 
objections, so ordered.
    It now gives me pleasure to recognize Mr. Takano for any 
opening remarks he may have.

        OPENING STATEMENT OF MARK TAKANO, RANKING MEMBER

    Mr. Takano. Thank you. Thank you, Mr. Chairman. I am very 
pleased to welcome you to my home district here in Riverside 
County and the Inland Empire. Thank you for your kind words. 
And I must say, I appreciate the bipartisan spirit in which you 
chair this Committee and the bipartisan work we are able to do 
on behalf of our Nation's veterans.
    I am also glad that Dr. Ruiz is here. I know my mom is glad 
you are here. She is in the audience. You saw her. And I am 
hopeful that Ms. Torres will join us very shortly.
    Thank you all for making the effort to learn how Riverside 
County and the Inland Empire are finding solutions to the 
problem of veteran homelessness. Today, we have come together 
to talk about the fact that, as President Obama has said, ``too 
many of those who once wore our Nation's uniform now sleep in 
our Nation's streets.''
    Veteran homelessness is a complicated problem with many 
causes, which call for comprehensive and evidence-based 
solutions. Each of us here today is dedicated to learning how 
we can contribute to those solutions. Fortunately, we have seen 
models that work, and many of those models have been 
successfully implemented here in Riverside County.
    I am extremely proud of the work that is being done in my 
community to get veterans and their families off the streets 
into permanent housing and entering meaningful employment or 
pursuing higher education and training.
    The five witnesses joining us today each have a unique 
narrative to share on the topic of veteran homelessness. We 
will hear from both the city and county of Riverside about what 
is possible when we coordinate regional efforts among Federal, 
State, and local governments; nonprofits; and the private 
sector to provide a full spectrum of resources that meet the 
needs of veterans transitioning from homelessness to permanent, 
stable housing.
    We will hear from two nonprofit organizations that have 
each contributed greatly to ending veteran homelessness in this 
region. U.S.VETS has been fighting veteran homelessness for 
over 20 years and has a wealth of recommendations to share with 
us, particularly regarding efforts to improve the Department of 
Labor's Homeless Veterans' Reintegration Program, or HVRP, 
which our Subcommittee oversees.
    U.S.VETS, along with other organizations, spearheaded the 
creative strategy to reuse March Air Force Base and build the 
new March Veterans Village in Moreno Valley. I am very proud of 
this initiative, along with many others in this region.
    The Veterans Association of Real Estate Professionals, or 
VAREP, serves as a voice for the interests of veterans on the 
topic of financial literacy, homeownership, and VA loan 
education. They play a unique role in the effort to help 
veterans achieve the American dream of homeownership, and I 
look forward to their contribution to today's discussion.
    Last but not least, we will hear from a veteran who served 
our Nation honorably and then struggled on the brink of 
homelessness before accessing the housing and education 
resources that have ensured he and his family have a stable 
home and a bright future. Welcome.
    We have asked that the witnesses focus their testimony on 
issues that fall within this Subcommittee's jurisdiction, 
particularly programs that help homeless veterans find good, 
stable jobs or that enable veterans to use the GI Bill to 
pursue educational opportunities while receiving a living 
stipend.
    That said, we want to hear about the comprehensive 
approaches that have worked to move homeless veterans into 
permanent housing, including HUD-VASH vouchers, the Housing 
First model, and issues related to mental health, health care, 
and substance abuse.
    We understand that veteran homelessness is a complicated 
issue and that jobs and education are a part of the solution 
but not the whole solution. Most importantly, we are all 
looking forward to hearing about the initiatives and efforts 
that have produced results in Riverside County and the region, 
as well as your recommendations that we can take back to 
Congress so that we may continue to see improvements.
    Now, I want to thank all of you for being here today, and I 
look forward to hearing about how Riverside County and our 
region have made progress on this all-important issue. And, Mr. 
Chairman, with that, I yield back.

    [The attachment appears in the Appendix]

    Mr. Wenstrup. Well, thank you, Mr. Takano.
    And, Dr. Ruiz, please feel free to share any opening 
remarks that you may have.

                 OPENING STATEMENT OF RAUL RUIZ

    Mr. Ruiz. Thank you, Mr. Chairman.
    It is interesting. I am neighbors with the Chairman in the 
Longworth Building. His door is right in front of my door so I 
always know what time he gets in. He gets in pretty early. And 
we have a good working relationship, so thank you for coming to 
Riverside to hold this hearing. It is very important that we do 
this in a bipartisan way, and it is very important that the 
people see that in order to be an example of what we can do 
together when we eliminate the hyper-partisanship and start 
working together to get things done.
    Mr. Wenstrup. Absolutely.
    Mr. Ruiz. And I want to thank the Ranking Member Takano for 
holding this timely hearing regarding a true crisis that has 
been plaguing our veteran population for too long, which is 
homelessness. Our veterans sacrifice so much for this country. 
They are the men and women who left their homes, families, and 
careers to defend our American values. Today, we must accept 
that our veterans are also those homeless that we pass on the 
street.
    Although a veteran's service to this country is complete--
and for many, the passion to help and to serve is a way of life 
that never ends; it is not a temporary job--many veterans still 
desire to serve in their communities, and I am interested in 
how we are educating and empowering those veterans to aid in 
solving this current crisis. We must not overlook the well of 
expertise we have right here in this room, right here in our 
home and in our communities.
    Two of these veterans, advocates from my district, are here 
in the audience with us today. We have Anita Worthen, who 
coordinates the annual Pass Area Veterans Expo, which will take 
place in Beaumont Civic Center on Saturday, January 30. One of 
the expo's goals is to connect homeless veterans with Loma 
Linda VA Hospital for mental health services and other 
services, including housing, et cetera.
    And Shirley Powell, who spent 38 years in the Air Force, 
and who participated in our Veterans University last year, 
where community leaders learned the skill to ``pay it forward'' 
and help their fellow veterans. She is also coordinating the 
Veteran's Easy Access Program Expo that will happen April 2 in 
Indio. Both of them are my top advisors in relation to 
veterans' issues.
    We are holding this hearing a week before the 2016 Point-
in-Time count, which means that we can face those numbers with 
realistic expectations, and more importantly, pragmatic 
solutions. My hope is that these solutions will lead to a 
veteran population that no longer has to wonder if they traded 
their service for financial instability and homelessness.
    But in order to solve this multifaceted, complex problem, 
we must be dedicated not only to the end result, but also to 
the process. And this process involves three main stages: One, 
assisting veterans before the end of their activity duty 
service; empowering veterans to succeed in the first months 
after returning to civilian life; and providing a safety net 
for veterans to avoid homelessness.
    Each of your organizations is working to address different 
aspects of this process, and there is value in the alternate 
approaches to ensure no veteran slips through the cracks. And 
as we evaluate the different points of intervention offered 
through your organizations, we must be willing to perform a 
critical analysis of our current processes and have a frank 
discussion of successes and failures.
    In 2014, I joined Congressman Takano and our neighbor 
Congressman Calvert to support a Coachella Valley Housing 
Coalition with U.S.VETS, and county housing authority 
application for 75 project-based HUD-VASH vouchers to help 
develop a community for homeless veterans here at March Air 
Force Reserve Base in Riverside known as the March Veterans 
Village.
    So I am interested in learning about the successes of this 
project and the obstacles that were realized prior to or during 
implementation as well. As a physician, I understand that 
homelessness and shelter is a major determinant of health. It 
is one of the basic human necessities, and I know this being a 
disaster specialist working in Haiti after the earthquake and 
other areas of extreme poverty.
    And I am also interested in hearing about how we serve our 
homeless population with their health care. Just earlier this 
week, I met with several community stakeholders that service 
homeless populations in the hopes of starting a street medicine 
program that actually provides point of care in the streets for 
the homeless, finds them, integrates them, and helps them 
there.
    And also, if you all could shed light on specific issues 
that women homeless veterans face in job placement, utilizing 
their GI Bills, and also getting housing.
    So I want to say thank you all for your passion and for 
caring and for serving our veterans. Thank you.

    [The attachment appears in the Appendix]

    Mr. Wenstrup. Well, thank you very much, Dr. Ruiz and Mr. 
Takano, for your statements. And I think that you can tell, at 
least amongst the Congressmen sitting up here, that there is a 
true desire to take care of our veterans and be successful at 
doing it.
    At this time, I would like to welcome our first and only 
panel. And on our first panel we have Mr. Emilio Ramirez with 
the city of Riverside, California; Ms. Carrie Harmon with the 
county of Riverside, California; Mr. Stephen Peck with 
U.S.VETS; Mr. Son Nguyen with Veterans Association of Real 
Estate Professionals; and finally, Mr. Jose Rivera, a student 
at the University of California, Riverside.
    Each of you will be recognized for 5 minutes. And please 
note that the timer in front of you, there will count down how 
much time you have left. I thank you for being here. I have 
read ahead and I am impressed with what all of you are doing, 
and I thank you very much.
    With that, Mr. Ramirez, you are recognized.

                  STATEMENT OF EMILIO RAMIREZ

    Mr. Ramirez. Thank you. Good afternoon, Honorable Chairman 
and Members of the Subcommittee. My name is Emilio Ramirez. I 
have the honor of serving with the Community Economic 
Development Department with the city of Riverside. And I am 
honored to be in front of you today and to have been asked to 
testify about what the city of Riverside is doing in its effort 
in meeting the challenge to end veteran homelessness in our 
community.
    I will be speaking about the Riverside Ending Homelessness 
5-year plan that is included in the written testimony and 
focusing on being able to meet that challenge to end veteran 
homelessness.
    First, let me take an opportunity to thank the Committee 
and Chairman Wenstrup for the hearing and for the leadership 
that he is showing in this very important cause.
    I would like to acknowledge Representative Mark--
Congressman Takano, as well as everybody involved in bringing 
the challenge to end veteran homelessness to our community.
    In addition, I would like to greatly appreciate the local 
leadership and thank Mayor Bailey and the city council for 
accepting the challenge and offering the support that we needed 
to succeed.
    So getting started, first, I would like to talk a little 
bit about what we have done. And in Riverside, the city and the 
community, there was already an amazing partnership that 
existed amongst a collection of real talent. But because the 
need is so great and the resources are so limited, we often 
find ourselves focused on what is immediately in front of us. 
And we end up working independently to solve the issue that is 
in front of us right now.
    So sometimes, it takes a reason to come together to work 
together, and the challenge brought that forward, not that we 
didn't already know each other, not that we didn't already 
share experiences, but now we had a reason. And we had to house 
86 people in the Riverside community, and we had 6 months to do 
it. And it didn't mean in a shelter, in an overnight bed. It 
meant in a home, in a permanent unit, and that meant a lot of 
work and a lot of collaboration in order to achieve that and do 
that in a successful way. Because it is not easy to just hand a 
person a key and say this is where you live. We need to make 
sure that they are going to be successful after they move in. 
We need to make sure that they are not going to be returning 
back to homelessness, which we see all the time, and I will 
talk about in a little bit.
    They--the homeless person, veteran, or otherwise--has to be 
ready to receive the unit. They have to have a job. They have 
to be employed. They have to be trained. They have to have 
education. And they need a lot of those resources that 
sometimes some of us take for granted. Even little things like 
a checking account are very important and it needs work. It 
needs a lot of work. And we all know that training and 
education is much more important than a handout.
    So we, the partners, managed to find each other and we work 
together and we exceeded the mayor's challenge by housing more 
than the 86 veterans that we had first identified. We learned a 
couple things along the way. When we are motivated, we can work 
together and we can get things done. Given all of the amazing 
bureaucracy that we all know exists at the local level, the 
county level, Federal, State, we managed to make sure that we 
found a way to work together and we met the challenge. We 
housed the 86 plus people within the 6-month period. They were 
not housed in a motel room. They were not housed in shelter. 
They were housed in a permanent unit.
    It caused us to work together and to identify things that 
we didn't know, such as, we have plenty of cash, but sometimes 
the cash is stuck in places that we can't use it. Sometimes, it 
doesn't allow us the flexibility that we need.
    We discovered that some of the programs that are out there 
are very valuable, valuable programs, but as the Chairman had 
identified in an opening statement, sometimes they are stuck 
and they don't seem to work well together. We identified 
programs like the Housing Choice Voucher Program and the VASH 
program that can provide a unit, but then the landlord is 
refusing to accept the tenants because it comes with a Section 
8 voucher or a VASH voucher. Why? Simply because there is a 
stigma attached to that voucher. I think that we need a little 
bit of better policy and some homework in being able to 
overcome that stigma.
    We need someone who is going to be able to help the 
homeless person from the beginning to the end. We need to be 
fully engaged in housing and employment navigation as an 
integral part of Housing First. We need effective case 
management as an integral part of Housing First both before and 
after they move into the home. We cannot just say here, here is 
the place that you are going to live and expect that we have 
done our job because that person is not going to live in that 
unit for very long, and it is going to be vacant and it is 
going to be available to another person for us to move into 
that unit and there will be a revolving door. And that is not 
success. That does not work. That is not Housing First.
    I can share with you many, many stories. I am sure 
everybody on the panel can share many stories about people who 
have achieved success. I know personally of a veteran--we will 
call him Fred--in Riverside that achieved success. And he 
achieved success because he received that wraparound service, 
housing navigation, employment navigation, a housing unit, case 
management afterwards. All of the time from beginning to end, 
the team was talking with the homeless person, his family, and 
everybody around their community.
    There is also failure that we have experienced then that we 
have learned along the way of a person in the community that 
just didn't receive a unit for failure of housing navigation. 
We just were not ready to offer the service when he was ready 
to receive it. We can't expect him to come to a meeting at 1:30 
in the afternoon on Thursday and this is when you are going to 
get the service. We need to be ready to be responsive when he 
is ready to be responsive.
    There is also examples that exist where a person did 
receive a unit, they moved in, and they were not ready to live 
in a unit. They did not have the ability to acclimate to their 
surroundings and so they moved out. We found them on the street 
3 months later. That is not success.
    So what we are asking for you today is to acknowledge that 
it is an entire process, and the process itself is Housing 
First, not just the units. The process involves identifying the 
person that is homeless with housing navigation and looking for 
a plan as to how to accomplish permanent housing and 
employment, and then identifying a unit in a way that is 
actually viable that they can move in, whether it is a VASH 
voucher or a Section 8 voucher or something along the lines, or 
whether we actually construct a project much like what is 
described in March and also much like what we have done in 
Riverside with our Home Front at Camp Anza project. It is a 
veteran disabled family reunification project, 30 units in a 
historic Camp Anza military compound in Riverside that we are 
repurposing for affordable housing.
    Those things need to come as part of the whole of 
wraparound services. And a funding source for that program, 
that project, did not come from the VA. It came from other 
sources that is traditionally affordable housing.
    And so what we are asking for and what was included in my 
written testimony is an opportunity to include a program that 
is holistic in nature, that includes all the way from housing 
navigation, employment, that includes identifying units or 
actually constructing and developing the units and moving a 
veteran into that unit and then providing continued case 
management afterwards. We think that the VA has an opportunity, 
like it did with VASH, to copy a lot of the programs that are 
within HUD and provide for the wraparound services. HUD is 
effective in those programs, although there could be more money 
in them and more flexibility, but housing navigation, 
employment navigation, production of units, and case management 
afterwards.
    Thank you.

    [The prepared statement of Emilio Ramirez appears in the 
Appendix]

    Mr. Wenstrup. Thank you very much, Mr. Ramirez.
    Ms. Harmon, you are up for 5 minutes.

                   STATEMENT OF CARRIE HARMON

    Ms. Harmon. Chairman Wenstrup, Ranking Member Takano, and 
other Members of the Committee, thank you for this opportunity 
to appear before you here today. On behalf of our county, I 
would like to thank you for your leadership and support, which 
has been instrumental in providing local communities with the 
resources needed to serve the Nation's most vulnerable 
veterans.
    As the representative from Riverside County, I have the 
opportunity to speak on behalf of the county departments and 
the partnering agencies that are actively engaged in our local 
fight against veterans' homelessness. I also have the humble 
opportunity to represent the homeless veterans in our county, 
many of which are now housed--they have been assisted through 
this national effort.
    I am proud to report that our county has made significant 
progress in ending veterans' homelessness, and we are very 
close to reaching the finish line. Over the course of the last 
2-1/2 years, we have housed over 1,000 homeless veterans, but 
most importantly, we have also learned a great deal about what 
systems locally need to be changed and what more is needed to 
further refine our efforts.
    So where are we at in Riverside County? We are now 2 years, 
7 months into our fight against homelessness. We have 
officially housed 1,007 homeless veterans countywide, and this 
number represents the number of veterans that have been housed 
through VASH, regular Section 8, permanent supportive housing 
programs offered by the continuum of care, and other affordable 
housing communities provided by our nonprofit developers, who 
are rarely mentioned but have joined us in this cause and will 
always offer a unit to a homeless veteran in our community.
    This number also represents the number of homeless veterans 
who successfully transitioned to market-rate housing and back 
to their families following their stay in transitional housing 
programs, grant per diem programs, and emergency shelters 
because not every homeless veteran needs a permanent housing 
subsidy. Some just need a temporary hand-up, and we cannot do 
away with transitional housing, grant per diem, or those 
temporary programs for our veterans that just basically need a 
job and a little help.
    In addition to housing--so we have 115 veterans left to go, 
and about 80, 85 of these veterans have a voucher in hand and 
are just looking for a rental unit. We will reach the finish 
line very soon, but we still have so much more work to do in 
our communities to service all veterans, especially low-income 
veterans, and make sure they do not slip into homelessness.
    In addition to housing veterans, we have developed more 
units of affordable housing that are earmarked for low-income 
veterans. Over the last 2-1/2 years this investment has 
translated to about $10 million in local funding, and this is 
not VASH funding, although there are some project-based 
vouchers. This is our home money through that Federal program 
that gets cut sometimes. But this is also money that flowed 
through the States and money we had locally. But we made that 
commitment. My goal is to create 1,000 units of affordable 
rental housing that are there for veterans. Homeless or just 
low-income, we have already created 739, so we are also very 
close to that. So we don't just house veterans. We are creating 
more housing units, which are very important in our southern 
California market. We don't have enough housing for everybody.
    The county started our effort with the passage of VALOR. 
VALOR was passed by our board of supervisors in April 2013. It 
was the board's public commitment to end homelessness, to craft 
local policies which made sure that our homeless veterans had 
access to the housing and services they so desperately needed. 
And it was also the board's call to action to all county staff 
and departments to go back and find out how we can do better, 
serve better, and remove the barriers that are preventing full 
access to our services.
    VALOR is also a public-private partnership, and when I 
speak of what we accomplish, we could not do it without private 
landlords, without nonprofit agencies, and without citizens, 
just regular citizens who have bought furniture, refrigerators, 
and all to help our veterans.
    In 2014, we did a veteran-only Point-in-Time count, but 
what was more important than counting was we realized that we 
need to survey them to better program our supportive services. 
We also led all of this through the Housing Authority, which is 
not usually tapped as the go-to person to lead housing efforts, 
but housing authorities are valuable.
    I wanted to leave you with some ideas of how we could 
further improve. There is an urgent need for more affordable 
housing for veterans and nonveterans, and we need to make sure 
that home funding at the Federal level, Section 8 funding, CDBG 
are brought back to levels that we can really make a difference 
in our community through that work.
    We continue to have veterans that stay homeless because 
they don't have a birth certificate or a State-issued ID. We 
can fix that. It is ridiculous that you can't rent an apartment 
because you haven't gotten your birth certificate from New 
Jersey to get your driver's license. These are things that we 
can, by public policy, fix.
    You know, employment is our most important thing. If I were 
to ask you to tell me about yourself, you would tell me where 
you live, where you work, who is in your family. Imagine if you 
are a homeless veteran, how would you answer these questions? 
You could not say who you were the way we normally say who we 
are. We must give more money for employment programs that are 
earmarked for veterans, and these must be on-the-job training 
programs that provide them with real work experience.
    And I know I am over my time, aren't I? Yes. So that is 
pretty much it. We need more affordable housing, more funding 
for employment programs. Thank you.

    [The prepared statement of Carrie Harmon appears in the 
Appendix]

    Mr. Wenstrup. Well, thank you, Ms. Harmon.
    Mr. Peck, you are now recognized.

                   STATEMENT OF STEPHEN PECK

    Mr. Peck. Thank you very much. Good afternoon. And thank 
you very much for holding this hearing.
    My name is Stephen Peck. I am the president and CEO of 
U.S.VETS. I am also a Vietnam veteran. I served with the 1st 
Marine Division in Vietnam in 1969 and 1970, and I have been 
doing this work with homeless veterans since 1991.
    U.S.VETS has been in the fight against veterans' 
homelessness since 1993 when we started our first program in 
Inglewood, California. Since then, we have grown into the 
largest nonprofit organization for homeless veterans in the 
country, providing services at 21 residential sites, 9 service 
centers in 14 different cities across 6 States and the District 
of Columbia.
    Last year, U.S. VETS touched the lives of over 17,000 
veterans and family members, providing housing to more than 
4,500, provided preventive and repaid re-housing services to 
4,600 veterans and their families, and placed more than 1,200 
veterans back into full-time employment.
    Locally, U.S.VETS Inland Empire, our project headquartered 
at March Air Reserve Base, is the largest veteran provider in 
San Bernardino and Riverside Counties. This year, in these two 
counties about 2,000 veterans will experience homelessness, but 
26,000 veteran households are living in poverty on the brink of 
homelessness, so we have a big job in front of us. The Inland 
Empire unemployment rate among veterans is 9.5 percent, almost 
double the national average.
    Despite the fact that many of our veterans here have legal 
issues such as DUI, domestic violence, and child support as a 
direct result of dealing with traumatic brain injury, post-
traumatic stress, and/or combat trauma, we were able to help 
about 90 veterans return to full-time employment this past 
year.
    With over 200 units of housing from permanent supportive to 
Bridge Housing to Safe Haven, we have been able to help more 
than 800 veterans and their family members find housing in 
2014-2015 and are on track to serve 1,000 this coming year. And 
we will be able to serve even more when we get our March 
Veterans Village up and running in 2017. Keep your fingers 
crossed on that.
    U.S.VETS services are comprehensive. To us, there is no one 
answer to homelessness, so we co-locate housing, counseling, 
and employment assistance at each of our sites, helping to 
create an environment that is responsive to the many challenges 
veterans face as they transition from military to civilian 
life. Our services include rapid re-housing beds, transitional 
and permanent supportive housing, and support services to 
homeless and at-risk veterans in the community, helping each 
veteran, male or female, achieve self-sufficiency.
    We want to prevent veterans from becoming homeless in the 
first place if we can, so along with the VA Supportive Services 
for Veterans Families program, we provide preventative mental 
health counseling to veterans in the community through our 
Outside the Wire program and employment assistance to veterans 
who are not yet homeless and are ready to return to work 
through our Career Development Initiative. Last year, through 
this program, we helped about 450 veterans return to work at an 
average wage of $45,000 a year. Both of these programs, both 
CDI and Outside the Wire, are completely privately funded.
    Back in 1993, we started with the idea that every veteran 
should be empowered to live at their highest level of 
independence, which means that we want every veteran who is 
capable of full-time employment to have the dignity of finding 
a job. Every site has a career center, and our workforce teams 
are critical to the success of our veterans.
    We have six HVRP programs across the country, including one 
in Los Angeles County, which helped us place 618 veterans into 
full-time employment this past year at an average wage of $12 
an hour. We have developed other State and private workforce 
funding to make up for the limitations of the HVRP program.
    So let me make a few observations. First, one of the 
limitations of operating HVRP is its inability to assist those 
veterans that may be at risk of homelessness such as the 
veterans we are serving through our SSVF program. They are not 
yet homeless and therefore do not qualify for HVRP services. We 
don't always have other workforce funding to help these 
veterans, but if we could help them prior to the onset of 
homelessness, we may be able to prevent them from losing their 
housing.
    This is where our Career Development Initiative comes into 
play. Fully one-third of our job placements this last year were 
made through the CDI program because of lack of sufficient and 
flexible funding from DOL.
    Nationally, the HVRP funding has been flat-lined for the 
past 3 years while increasing numbers of vets return from 
deployment, all of them needing jobs. The program is authorized 
at $50 million, but has never reached that funding level and is 
stuck at $38 million, leaving thousands of veterans without the 
employment assistance they need. Currently, there is no HVRP 
funding in Riverside County.
    Secondly, the ultimate goal of the HVRP program is to place 
veterans into long-lasting employment. If there were additional 
funds available to expand follow-up services to include more 
than just counseling and placement, services such as additional 
training if necessary, grantees could be more supportive to 
those veterans, help them secure higher-paying jobs, and ensure 
that they keep those jobs.
    And finally, the VA and HUD emphasis on quickly moving vets 
out of service-intensive transitional housing into permanent 
housing does have some unintended consequences. Once they are 
in permanent housing, they are ineligible for HVRP. Making them 
eligible for 90 days after they move would alleviate this 
problem.
    But the ready availability of HUD-VASH vouchers marketed 
heavily by the VA and others in the community can create a 
disincentive for some veterans to seek employment. Crawling out 
of homelessness and building the skills to become self-
sufficient is difficult. We and other providers have had many 
veterans who have been in our workforce programs readying 
themselves for employment who suddenly drop out of the job 
search because they have heard the possibility of receiving a 
VASH voucher. What they say to us is, I don't want to endanger 
the possibility of getting my voucher by getting a job. The 
income may disqualify me. That is a terrible disservice to 
veterans, trading a productive career for a lifetime of 
dependence.
    We have more resources than ever before to help veterans 
who are homeless, and it is up to all of us to use them wisely, 
empowering the veterans we are pledged to serve, and making 
sure we are providing them the skills that will help them, as 
one of our vets said, ``to bring back the man who once wore the 
military uniform with pride and honor.''
    Thank you very much.

    [The prepared statement of Stephen Peck appears in the 
Appendix]

    Mr. Wenstrup. Thank you very much, Mr. Peck.
    Mr. Nguyen, you are now recognized.

                    STATEMENT OF SON NGUYEN

    Mr. Nguyen. Chairman Wenstrup, Ranking Member Takano, and 
Members of the Committee, good afternoon.
    My name is Son Nguyen. I am a Navy veteran, cofounder and 
president of the Veterans Association of Real Estate 
Professionals, also known as VAREP. With 24 chapters and 
growing, we are pleased to share the perspective of those most 
directly impacted by the subject that this Committee addresses.
    Established in 2011, VAREP has grown to be the voice for 
the interest of veterans in financial literacy education, VA 
loan education, and homeownership counseling. Additionally, we 
have become the educational resource for the real estate, 
lending, and housing professionals. Our Capitol Hill visits 
have advocated for a multi-agency collaboration, including 
specific legislative and administrative changes in removing 
barriers to homeownership.
    Our proudest accomplishments in 2015 include educating over 
1,500 veterans on the importance of good credit, benefits of 
homeownership, the home-buying process, the VA loan benefit, 
and down payment assistance programs across the country. As a 
direct result of our housing summits, we have placed 500 
families and helped them realize the American dream of 
homeownership. Of that 500, 50 families were helped in southern 
California.
    We are also proud to say that we were able to give away 10 
mortgage-free home donations to wounded warriors and heroes in 
2015. We also gave away $40,000 in forms of grants for down 
payment assistance, closing costs, and adaptive housing 
rehabilitative grants.
    We are also very proud of being able to take blighted 
homes, rehabilitate them, and resell them to 70 veteran 
deserving families in 2015.
    While southern California has made great strides in ending 
chronic veteran homelessness through programs such as HUD-VASH, 
we must now focus on the marginally homeless younger veterans. 
A young couch-surfing low-income veteran who cannot afford a 
permanent dwelling is essentially homeless. However, currently, 
these type of veterans have shared with us that they don't 
qualify for the HUD-VASH voucher program. HUD-VASH should be 
reconsidered and expand its definition of homelessness to be 
more inclusive of the marginally homeless low-income veterans.
    The transitional period is a critical time in a veteran's 
life. They are brought in off the street. They are provided 
with psychological assistance, physical assistance, but there 
is no fiscal education. They are not financially fit when they 
graduate from the program. We recommend that financial 
literacy, education, and housing counseling services need to be 
part of the wraparound supportive services provided and 
overseen by case management and required as a daily living 
activity. This would arm the veterans and make sure that they 
reintegrate sustainably in permanent housing.
    Lack of financial literacy education may trigger veteran 
homelessness. A study published in the American Journal of 
Public Health in 2013 stated ``an overlooked contributor to 
veteran homelessness is not achieving financial stability after 
military service.'' A 2014 USC Los Angeles County veterans' 
survey backed this up. They said that of the veterans they 
surveyed, 30 percent of them reported financial troubles, which 
many began during their military service. A 2014 Blue Star 
Family survey revealed that 65 percent experienced stress 
related to their family's current financial condition, and 84 
percent agree that greater focus should be placed on 
preventative financial education as a whole.
    A financial literacy education and coaching program needs 
to be established under the GI benefits so veterans can apply, 
participate, and graduate financially if, ensuring 
sustainability. The new benefits should be implemented in all 
phases during active-duty, transitioning, and reintegration for 
sustainability.
    Barriers to homeownership: The biggest barrier of 
homeownership is lack of outreach, education, and counseling. 
The lack of these services have caused confusion, frustration, 
and in some cases, housing discrimination.
    In 2015, VAREP surveyed 500 veterans through our housing 
summits and found that 95 percent said they did not receive 
housing training and counseling services while in the service. 
Ninety percent said they did not receive VA loan benefit 
training during the service, transitioning out, or post-
separation. Forty-five percent said they thought that they 
could never own a home. Sixty-five percent said they did not 
know where to go to get help with their credit. Seventy percent 
said they could not find a home on a limited income. Ninety 
percent said that VAREP was the first group that actually 
focused on educating veterans on homeownership. Seventy percent 
said that they had a hard time finding a realtor or lender that 
would work with them if they were using the VA loan program.
    The Department of HUD has proven that homebuyer pre- and 
post-purchase and default housing and education works. We 
recommend that the VA take a look at this program and come up 
with a solution to come up with a VA housing-approved 
counseling agency.
    To illustrate these points, I would like to share an 
example of a veteran that we have helped. In the Housing Summit 
held in Riverside, which Ranking Member Takano addressed the 
audience, we had 29 attendees and 6 confirmed veterans who 
bought a home within one year of attending. His name is Dennis. 
He is in the audience right now. He fell into hard times. He 
lost his job due to his injuries. His wife, himself, his 
daughter, who was pregnant at the time, was not technically 
classified as homeless, but they were living in a fifth wheel 
without electricity, borrowed electricity, and no running 
water.
    Since he did not fit the description of homelessness, he 
did not qualify under any of the Federal programs. Real estate 
agents and lenders did not want to work with him because he 
wanted to use his VA loan. He was not informed of the down 
payment assistance available, and his credit needed repair. 
Bottom line, no one would help him. He attended our Veterans 
Housing Summit and 6 short months later he realized the 
American dream of homeownership.
    In conclusion, the points of this proposal is clear. 
Financial literacy education and homeownership education with 
counseling services are proactive and preventive measures in 
ending virtual homelessness in southern California. Pilot 
programs should be focused here with scalability across the 
United States. It is our hope that VAREP can work with the VA 
to bring this concept from possibility to reality.
    Thank you.

    [The prepared statement of Son Nguyen appears in the 
Appendix]

    Mr. Wenstrup. Well, thank you, Mr. Nguyen.
    Mr. Rivera, you are now recognized.

                    STATEMENT OF JOSE RIVERA

    Mr. Rivera. Thank you very much for the opportunity to 
speak today.
    Good afternoon. I would like to share my experiences as a 
beneficiary of the HUD-VASH program. The program has been life-
changing. The HUD-VASH program has empowered me to actualize my 
educational and professional plans. The staff at the Veterans 
Affairs in Loma Linda, especially Ms. Jennifer Sircar, played 
an important role by mentoring and supporting my educational 
and professional goals. Ms. Sircar was a great liaison and 
spokesperson by referring me to the U.S.VETS for further 
assistance in accessing resources. Furthermore, I was referred 
to the Warehouse for Heroes, which furnished my apartment 
completely.
    The program has been full of great opportunities. I am 
indebted to the Veterans Affairs and HUD. The services provided 
by both HUD and the VA have prepared me to transition into a 
new phase in my life. I am now on my way to realizing a 
lifelong goal of attaining my bachelor's degree in 
anthropology. This summer, I will graduate from the University 
of California, Riverside.
    I have been able to utilize the post-9/11 GI Bill benefits, 
which has contributed to the improvement of my quality of life 
for my daughter and myself. The GI Bill has been the platform 
which has allowed me to pursue my education. I have benefitted 
from the book stipend, from the tuition fee payment, and from 
the monthly living allotment. I have utilized the resources 
made available, and they have truly changed my life.
    Thank you for the opportunity to share my experiences.

    [The prepared statement of Jose Rivera appears in the 
Appendix]

    Mr. Wenstrup. Well, I want to thank all of you for your 
testimony here today.
    And now, we are going to go into the question phase. And I 
recognize myself for 5 minutes for questions.
    And I think one of the things I heard a couple of times 
here today was about prevention and what we can do to try and 
prevent homelessness to begin with. One of the things that we 
on the Committee over the last couple years have fully 
recognized is that we need to engage people while they are 
still in uniform, that is the best time to reach them, not here 
is your DD-214, we will see you later, good luck, go call the 
VA, that we need to engage people and get them educated on the 
programs.
    Now, I know what it is like when you come off duty. It is 
probably the last thing you really want to hear about. You are 
ready to just get home. And so that is the challenge with our 
Transition Assistance Program is how do we continue to capture 
everyone. But to me, we want it to be not only a presentation 
to them, something that they get while they are still in 
uniform, but know where they can go for the information and 
know where they can go for help.
    So my question really to each of you, whoever wants to 
weigh in, and we can go down the line, is some tips that you 
may have from your experiences of how we can prevent 
homelessness to begin with or at least reduce the rate, because 
it is always going to be a challenge. I mean, this is not a 
transition that most people make in their life, and it is 
different from most transitions in life like from college right 
to a job and things like that.
    So anything you might want to share with us where you think 
we can do more to prevent that first step that we are trying to 
bring people out of.
    Mr. Ramirez. Well, unfortunately, I don't have the direct 
experience to be able to address coming out of service and into 
civilian life. However, I do think that there is a lot to learn 
from the work that the community does in preventing 
homelessness generically, generally. And that needs to include 
working on the population that is potentially going to be 
homeless and not having to require that they be homeless to 
receive service, like the example of the fifth wheel. It 
doesn't mean that they need to accomplish homelessness in order 
to be eligible for service. I don't think that that is 
necessary.
    Also, the production of affordable housing units and not 
shelter beds is very important. There is a large population of 
working poor, veteran and otherwise, and as the economy turns 
and as people move from a single-family home into an apartment 
complex, it just trickles down, and eventually, it creates a 
homeless population that wasn't there before.
    And I do think that providing services that provide for job 
training, education, all of those services that could lead to 
eventual success in not just housing, but just in the quality 
of life, as our esteemed student mentioned. I think that that 
is valuable and we should pursue all of those things. And all 
of those are for the benefit of the quality of life of the 
family, and I think that that is what we should pursue.
    Mr. Wenstrup. And I think another thing, too, that was 
brought up is how do we prevent someone who is in a home to 
becoming homeless. And I have seen it in my district where 
sometimes it is older veterans and their house is deteriorating 
and they can't take care of it, and there are agencies that 
want to come in, even volunteer to help --they could use a 
little more funding. And if they can just fix up the house 
before it is condemned, then the veteran doesn't become 
homeless. And I think that is what you were referring to, Mr. 
Nguyen, as well.
    Does anyone else care to comment? Please.
    Ms. Harmon. Yes, one of our departments, our county 
departments, is Workforce Development Services. And what we 
have long asked for is just give us a list of the veterans that 
are coming home into our community that recently separated 
because we always expect the veteran to find us, but hey, we 
can find the veteran. And, you know, maybe we just need to call 
them--we have veterans that are on staff--and reach out to 
them.
    The other thing is, in general, we need to welcome back 
veterans to our community. We need to create campaigns that say 
we are proud to have a veteran as a neighbor. We need to offer 
discounts in our local businesses. In our workforce centers we 
have priority of service.
    But we also need to realize that I think our idea of a 
veteran is an older person at times or, you know, the guy or 
girl who did a lot of time. And it might be a very young 
veteran who went in at 18 and said, you know, I am going to do 
one stint and then I am going to go on. We need to catch that 
veteran and make sure that we have a pathway to middle class. 
Because oftentimes, those younger veterans came from families 
where there weren't a lot of opportunities. They might come 
from low-income families.
    So help us reach out to them so we don't expect veterans to 
find us because we are more than happy to reach out to them.
    Mr. Wenstrup. Yes. I think that is important, too. And I 
think, like you said, there are many young people that get in, 
and it is not in their family history necessarily, serving or 
doing something else afterwards and so they are not aware of 
what their opportunities are.
    Yes?
    Mr. Peck. I think there is an issue that might be a 
legislative fix. When a veteran moves from the military to 
civilian life, it is a little bit like moving to a foreign 
country speaking a different language. They simply are not 
prepared beforehand. We would not send a Peace Corps volunteer 
to a foreign country without teaching him the language. So the 
TAP program obviously has its limitations. As you said, they 
are just ready to get out of there. You know, they are just 
holding their ears for a couple of days before they get out.
    So if we could do an assessment on them beforehand, 
especially those who have been in combat, you do the E-5s and 
below who have been in combat who have a lack of job skills, 
may have mental health issues which might be identified by that 
assessment, and all those other predictors to homelessness, 
then we would begin to follow them.
    The problem is the privacy laws don't allow us to follow 
them. We can't get those names from the State, from DoD. So 
there needs to be a connect from the information that we can 
gather if we choose to before they are discharged that we can 
then use as an essential tool to help them afterward in some 
mechanism, some incentive for them to come back.
    We all know that there is a lot of reluctance to admit that 
they have any problems. They think if they say they have a 
problem, they are somehow going to get held back, won't be 
released. So we need to fix some of those either through 
legislation or through incentives to get them to come and see 
us.
    Mr. Wenstrup. Thank you. Mr. Nguyen, anything to add?
    Mr. Nguyen. Yes, I would like to add. We are talking about 
preventative. I just remember me going through the service and 
definitely boot camp they didn't teach us anything but to get 
us ready, right, and then when you go to your first duty 
station, I truly believe that part of the--if we could mandate 
and make it part of the curriculum in preventative education, 
whether it is financial literacy, whether it is career skills, 
much more mandated prior to the TAP transitioning out.
    And I believe if you start earlier in the process, you are 
going to instill, whether it is money-management skills or what 
have you, the skills early and often. The TAP should just be a 
refresher course, not a course to say I have never been really 
taught that before.
    Mr. Wenstrup. Thank you. Mr. Rivera?
    Mr. Rivera. Yes, well, from my personal experience, what I 
learned in the military didn't translate into the civilian 
life. I wasn't prepared. So that was a major setback where 
there was a--I was uneducated. I was not ready to take head on 
the civilian life. So that was a major setback that I was--I 
didn't receive a--although they do train you, right before you 
get out, they offer classes, it still didn't--it wasn't enough 
to prepare me for the real world of not only the job aspect of 
it, but of just incorporating yourself back into society of how 
to function as a civilian again because you are in the military 
for so long, you get accustomed to that lifestyle. When you get 
out, you are really not prepared.
    As for myself, that was a major thing, that what I had 
learned in the military did not translate over. Although I was 
an infantryman, obviously it is not. It is more of a, you know, 
law enforcement or security type, since I didn't pursue those, 
I was relegated to mainly labor type of jobs, which although 
there is pride in that, you should be proud if you are working 
in that industry, that is not what I envisioned myself coming 
out of the military, digging, working with the shovel, or 
working a $9 job. So that was my major experience when I first 
got out.
    Mr. Wenstrup. Sure. You know, President Bush, I met him in 
Washington about 6 months ago, and he was in town because he 
was working with veterans on how to prepare their resume. And 
he was saying that when they ask you what skill you have, you 
don't just write ``sniper,'' you know? You say the skills I 
have are I show up for work on time, I am dependable, people 
can count on me, and things like that. And that is to your 
point, I think.
    But listen, thank you all very much. And, Mr. Takano, you 
are now recognized.
    Mr. Takano. Mr. Chairman, thank you for the wonderful line 
of inquiry.
    Mr. Rivera, can you tell me, what community did you come 
from? Are you from the Inland Empire? Did you grow up here?
    Mr. Rivera. No, no. Originally, I grew up in Orange County.
    Mr. Takano. Okay. Well, that is in the neighborhood.
    Mr. Rivera. Well, yes, it is southern California, right. It 
is in the neighborhood. And I have been living in Riverside 
County from, I believe, 2010, 2009.
    Mr. Takano. So where did you grow up in Orange County?
    Mr. Rivera. In Orange County? Well, I graduated from Garden 
Grove High School in Rancho Alamitos. So I went to school in 
the Santa Ana School District up to 8th grade, and my high 
school was in Garden Grove at Rancho Alamitos High School.
    Mr. Takano. Wonderful. Wonderful. Did you come from--what 
was your kind of economic background?
    Mr. Rivera. It was a lower economic background. My parents 
worked in the catering business. They had a lunch truck, tried 
to make ends meet, worked at the swap meet. So that is part of 
my decision to go into the military was that I was limited in 
my opportunities. College wasn't in the future at all.
    Mr. Takano. Were those educational opportunities that were 
held out by the recruiter or whoever you went to see, was that 
a huge part of why you joined?
    Mr. Rivera. The incentive to get money for college was a 
major reason why I wanted to join the military because I needed 
a way to advance my education somehow, so I realized that the 
GI Bill, at least for myself, amongst wanting to serve my 
country, was a determining factor for me wanting to enlist.
    Mr. Takano. Okay. Now, tell me where you were serving. I 
mean, tell me a little bit about your military history.
    Mr. Rivera. Okay. I was stationed 2 years in Georgia, Fort 
Benning, and I went to South Korea for 1 year, and that is 
where I left the military, from South Korea in 2002.
    Mr. Takano. So you exited the military--
    Mr. Rivera. I exited the military--
    Mr. Takano [continued]. After how many years you were in?
    Mr. Rivera Three years.
    Mr. Takano. Three years?
    Mr. Rivera. Yes.
    Mr. Takano. It did get you out of your neighborhood in 
Orange County? I am not saying it was a bad place, but the 
military--
    Mr. Rivera. Well--
    Mr. Takano [continued].--did allow you to see--
    Mr. Rivera. Right.
    Mr. Takano [continued].--you know, a different part of the 
world and--
    Mr. Rivera. Oh, definitely, yes, because thanks to the 
military, I got to travel to South Korea. That was a learning 
experience, learned the culture. Everything that I have learned 
in the military has stayed with me. Even when I was in Fort 
Benning, Georgia, there was a training and--
    Mr. Takano. Okay. Here is where I am going with this. Mr. 
Nguyen has said some things that I have often thought, and I 
have heard the Chairman kind of mutter things here at the dais 
as well about--
    Mr. Wenstrup. Mutter.
    Mr. Takano. Mutter. Well, I didn't mean it that way.
    Mr. Wenstrup. I know.
    Mr. Takano. Mention or discuss the notion that somehow in 
the lifecycle of a military servicemember, cramming everything 
into the TAP program at the end doesn't seem to be enough to 
prepare our military folks for that transition. So you came in 
the military with an expectation of being able to improve your 
situation, to get the educational benefits, but Mr. Nguyen is--
how do you respond to Mr. Nguyen's assertion that somehow there 
needs to be earlier preparation? What might have helped you--
    Mr. Rivera. Right.
    Mr. Takano.--looking back?
    Mr. Rivera. Well, see, the main training that I received 
was right before you got out. It was all these courses or these 
lessons on resume-building, on interview skills. Now, there 
would have been a little bit more resources available to--just 
like we focus on combat training or on weapons training, there 
should probably be a transition training, I mean, for all those 
people that are definitely planning to get out of the military.
    Mr. Takano. I see. I see. Tell me, you mentioned how 
critical those HUD-VASH vouchers were for you. Were you at the 
point of being homeless at that point or were you homeless at 
that point?
    Mr. Rivera. No, I was homeless already at--
    Mr. Takano. You were already homeless?
    Mr. Rivera. Yes. Yes.
    Mr. Takano. And can you just kind of give us some insight 
into how you got to that state of homelessness, kind of tell 
the story, please.
    Mr. Rivera. It was in 2008 when--okay. So it goes back. 
2008 I went through a divorce, okay, so I split up from my 
family. I was left--from that point on I was left--I wasn't 
directly homeless because I could go to my parents, but I could 
only do that for so long. So from 2008, I had been struggling 
up to the point where I learned about the HUD-VASH program that 
I could--I did even the couch-surfing. I lived in my car. But 
you can only sleep on somebody's couch for so long before you 
become a nuisance or you are infringing on their lifestyle. So 
I was already homeless up to the point where it was--actually, 
I got housed last March. I am about to hit the year mark when I 
got the HUD voucher.
    Mr. Takano. And employment was also a challenge for you--
    Mr. Rivera. The employment--
    Mr. Takano [continued].--during this economy, right?
    Mr. Rivera. Right. I had been working at temporary 
agencies, and because those particular job industries aren't--I 
worked at temp agencies and I would be laid off. I worked at a 
construction company, and I was laid off.
    Mr. Takano. So it was the lack of stability and--
    Mr. Rivera. Yes.
    Mr. Takano [continued].--duration of employment?
    Mr. Rivera. Right. It was the lack of stability of having a 
job of steady income coming in to be able to sustain a place to 
live or--
    Mr. Takano. My time has run out, but I want to just ask you 
this--can I--thank you, Mr. Chairman.
    How critical was this HUD voucher for you? If it didn't 
exist, what would that have been like?
    Mr. Rivera. Yes. I don't want to think like in that frame, 
because it probably wouldn't be good. I would probably be 
living in my car. I am sure that I would not be in school. But 
I really am thankful because at the same time when I got the 
Section 8, I had assumed full responsibility of my daughter 
because her mother became sick. And it happened just--I don't 
know. It just happened to happen at the same time where I had 
my daughter before I had the voucher, so we were sleeping on my 
mom's couch. I could no longer sleep in my car because I had my 
daughter, so that is when I went back to my mom's. And we were 
sleeping in her living room up to the point where we got the--
it was only about 3 months up to when we got the voucher. But 
if I didn't have the voucher, I know that I would probably be 
living in my car. I guarantee that I would not be in school.
    Mr. Takano. I know we have chatted before and you told me 
about--how much longer do you have until you graduate?
    Mr. Rivera. I am going to graduate in this spring.
    Mr. Takano. Wow.
    Ms. Harmon. Good for you.
    Mr. Rivera. Yes.
    Mr. Takano. Well, I want to just say how proud I am of you.
    Mr. Rivera. Thank you. Thank you.
    Mr. Takano. I told you I was going to check up on you, and 
you are graduating. We are just all very proud of you.
    Mr. Rivera. Thank you.
    Mr. Takano. So thank you for serving our country and, you 
know, thank you for using--you know, Secretary Shinseki once 
said that the Congress and the United States have approved a 
very generous package of post-9/11 education benefits, and that 
is why you entered the military, and the one obligation you 
have as a veteran is to complete and to finish and to use them 
well. And I am just so proud of you. You are out of U.C. and 
University of California, and you are using your benefits well 
and you are getting a good degree from a good university. And I 
have all the hope in the world for you and your daughter.
    Mr. Rivera. Thank you so much.
    Mr. Takano. So thank you very much.
    Mr. Wenstrup. Thank you. Dr. Ruiz.
    Mr. Ruiz. Mr. Rivera, I have to echo Congressman Takano's 
statement that we are all very proud of you. And actually your 
story touches me deeply. I have had family members who lived in 
cars as well because they were homeless working up and down, 
picking the grapes and citrus in the State of California. So I 
really admire the struggle, your perseverance, your dedication, 
your hope. And you are very blessed, my friend--
    Mr. Rivera. Yes.
    Mr. Ruiz [continued].--that you are at this point now. So I 
want to thank you for never giving up hope, man. You have a 
bright future--
    Mr. Rivera. Thank you so much.
    Mr. Ruiz [continued].--and we appreciate you.
    My question is going towards the whole panel, but I want to 
know, what are the unique dynamics for women veterans either 
that they are on the verge of being homeless or women veteran 
homeless population or women homeless veterans getting job 
training and job placement? I know that in the general 
population many women oftentimes face barriers in getting 
shelter because they don't accept their kids or, you know, they 
don't want to risk saying that they are in a shelter because 
then they will lose their kids in case they are in a divorce. 
So can anyone speak to those unique dynamics for women 
veterans? Mr. Peck?
    Mr. Peck. Thank you. At our Long Beach program we have a 
female veterans program and have had for 10 years or so. We 
have about 40 women, 9 of those are women with their children. 
And what we discovered early on when we first opened that 
program in the early 2000s, we couldn't fill the beds and we 
were wondering what was wrong. At that point it was only 30 
beds. We came to find out that most of the women that were 
coming to us had sexual trauma of some sort, and that 
disturbance was preventing them from living a life like you 
would want to live. Many of them had lost their children.
    And then as a result of this war, female veterans are in 
the combat zone. The prevalence of military sexual trauma is 
much greater than anyone would wish to know about. And an 
article recently in the L.A. Times said that the incident of 
suicide among female veterans is as high as the male 
population. It is six times higher than the female population 
of that age group.
    So there is a major mental health problem out there. There 
are way too few programs for women. And of all the women who 
come through our program in Long Beach, the vast majority need 
counseling and a significant time of stability before they are 
ready to go back to work. And only about half of them are going 
back to work. Some of the women that are coming through our 
program, their incident happened 20, even 30 years before, and 
as a result, they have a lot of physiological problems as a 
result of that.
    Mr. Ruiz. Thank you. I can imagine that a single mother 
with two, three children wants to get a job, and they want to 
participate in the job training rehabilitation program. How do 
they get childcare? Does the program provide stipend for 
childcare so that they can undergo the job training program?
    Mr. Peck. A number of the women today, young women with 
families, are availing themselves of the SSVF programs, 
Supportive Services for Veteran Families program, and that is 
not only the Rapid Re-Housing or Homeless Prevention. There is 
childcare dollars, there is transportation dollars. So all of 
that is available if they use it.
    The challenge with the SSVF program is it is time-limited, 
and if they are suffering from any mental health issues, it is 
difficult for them to complete--
    Mr. Ruiz. Is that time adequate to cover the job training 
programs, rehabilitation, or does it cover that entire time 
that they would need?
    Mr. Peck. I think it is up to 9 months now. It used to be 5 
months. I think it is up to 9 months. Is that right? So if 
they, for instance, had a 6-month training program, that would 
be adequate. But as I said, if they have--
    Mr. Ruiz. How often are the training programs longer than 9 
months?
    Mr. Peck. Sorry?
    Mr. Ruiz. How often are the training programs longer than 9 
months?
    Mr. Peck. Well, for instance, if they want to go back to 
community college, that would not work. So if we get them on 
the GI Bill, if that would be sufficient to handle their 
housing and here they can get an education, then that would be 
adequate. But many of them are having trouble putting all of 
those pieces together, and so as Mr. Nguyen said, it is a 
matter of education.
    Mr. Ruiz. Thank you, Mr. Peck. I am out of time. I yield 
back my time.
    Mr. Wenstrup. Thank you, Doctor.
    Mrs. Torres, thank you for joining us today. And you are 
now recognized.

               OPENING STATEMENT OF NORMA TORRES

    Mrs. Torres. Thank you. Thank you so much, Mr. Chairman and 
Ranking Member Takano. And although I am not on your Committee, 
I very much appreciate the opportunity to participate in this 
hearing with you and with Dr. Ruiz.
    I am no stranger to housing issues. In the State House, I 
served as the chairwoman for the Housing and Community 
Development Committee. And I am not a stranger to the 
homelessness issues. And I must say, I recommit to all of you 
there is absolutely no shame in being homeless. Circumstances 
beyond our control sometimes puts us in situations where we 
find ourselves in that position.
    Myself in 2005, I lost my home to a fire. And although I 
did not meet, you know, the regular, I guess, measurements of 
being homeless, thankfully, I had a credit card and I was able 
to charge myself, you know, into a hotel room with my three 
kids. I know the challenges that you have in trying to find a 
place to live, especially when you have liabilities like 
children and cats and a dog. Those all of a sudden become 
liabilities because there isn't a landlord that I know that is 
willing to accept, you know, a couple with three teenage boys, 
a dog, and a cat. They absolutely think that you are going to 
destroy their home.
    So I found myself being the mayor of my home city of Pomona 
living in a hotel, and ultimately, you know, being able to move 
back into my home 14 months later.
    So there is no shame in that. And from that perspective, 
Mr. Chairman, I feel like deja vu all over again in trying to 
address the issues of veterans and homelessness and job 
placements around this category that we hold so dear.
    Part of the problem is that, as veterans, you are warriors. 
You are the defenders of the homeland. You are trained to 
protect us. Therefore, it is very difficult in many ways for 
you to say I need help. I need somebody to give me a hand 
because I need assistance getting my benefits, I am not getting 
anywhere with this bureaucracy, the red tape that is often 
very, very difficult to maneuver.
    So I find that in my office now, as a Member of Congress, 
being able to help veterans but only after maybe 6 months to a 
year of them trying to get benefits.
    There are some areas that we can work as Members of 
Congress working with our State Legislatures and our local 
governments, and that is matching that training that you 
receive in the military. For example, if you are part of 
security forces or, you know, a police officer, MP, you know 
how to drive a bus, you come out with a bus driver's license 
most often, you know how to guard a building. Or if you are a 
paramedic, you know, you are the best person to serve in an 
emergency room side by side with an emergency doctor. You have 
already worked through that and treated some of those injuries 
in the field.
    One of the frustrations that I have had is getting the 
military to provide that training material to our community 
colleges so they are able to translate those learned tactical--
that tactical experience that you have had into a certificate 
program where you can receive a certificate and you are able to 
get a job within that type of job classification that you had 
been trained in the military. That is one area that I think we 
can try to twist some arms with the military and help them 
share that information with our community colleges.
    The issue of not having identifications, I am a little bit 
concerned about that. Getting the DD-214 form sometimes takes 3 
to 6 months after the veteran has left the military. A lot can 
happen during that short period of time, and a lot of times, I 
think that that is where we are losing them.
    To the city and county inspectors, housing inspectors, I 
would like to ask how are you dealing with VASH vouchers 
because my understanding is a different type of inspection that 
maybe your city or county may have then, the Section 8 
vouchers.
    Ms. Harmon. We actually use the same standards as the 
Section 8 program. VASH gives us the flexibility of pre-
inspecting units, and that inspection is good for a period of 
time so that we have a unit ready for a veteran. The biggest 
problem, even in the Inland Empire where we kind of, are billed 
as the cheaper place versus Orange County and L.A., is our 
rental rates are going up, and the voucher doesn't pay the same 
as a private person. And everybody is competing for rental 
units, you know, young people who have just graduated from 
college who are starting their careers, our homeless veterans, 
even professionals like myself are in the rental market, and 
all of that puts a lot of pressure.
    Unfortunately, the HUD-set payments standards are not 
competitive with the market rates in high-cost areas, and so we 
are asking landlords to really take a loss on a unit. Some are 
very financially well off and can do that, but it would be nice 
if they could get a tax incentive or some type of break for 
what they are--I mean, we could not run Section 8 or VASH 
without our private landlords, and they are very recognized. It 
truly is a private-public partnership. And I think in the Bay 
area, Chicago, parts of Chicago, New York, even Sacramento now, 
the vouchers just cannot get you in the door.
    Mrs. Torres. Right.
    Ms. Harmon. And I think the city can also speak to that.
    Mrs. Torres. Thank you. I think my time is out.
    In closing, I want to say that part of the solution with 
affordable housing in general, you know, lies within our 
communities. And addressing the issues of NIBY-ism, ``not in my 
backyard,'' a lot of people feel that affordable housing is 
substandard housing that doesn't belong in our neighborhoods. 
And I would challenge them to say, you know, affordable housing 
are housing units where we house police officers, teachers, 
your nurses, and your local veterans.
    So thank you for the opportunity, Mr. Chairman, to be here 
and to ask those questions.
    Mr. Wenstrup. Well, thank you. And I appreciate it. We will 
do another round of questions.
    There are a couple of things crossing my mind. It has been 
addressed; it is being addressed to try and parlay military 
experience and military education. And you know, Mr. Rivera, 
you spent time in a classroom with your job, and most everyone 
in the military does to various levels, and translating that 
into college credit or some type of credentialing for a State 
license, et cetera. So, you know, we sit at the Federal level. 
We are talking about things that require State licenses, and so 
working in that realm to try to get some cooperation with 
States and get them to have some buy-in on taking this 
experience and to allow it to parlay.
    And you bring up a good point, Ms. Harmon, of recognition 
of the landlords that do this, that in essence take that risk. 
And I equate it similar to the recognition that employers get 
when they hire someone who is in the Guard and Reserve. You 
know, basically that business is serving their country, you 
know, because they are hiring someone who may have to leave for 
a while and come back. And so I think there are ways that we 
can recognize and in some way provide incentives for people to 
want to take that chance and make it better.
    As a doctor, and Dr. Ruiz will weigh in on this, we always 
look at prevention and cure. You know, you get your symptoms in 
front of you and you think, well, how can I prevent it from 
happening again or for the next person, and then, how do we 
cure the one that is in front of us. And I think that is a lot 
about what we are talking about here today.
    And, Mr. Peck, I want to talk to you a little bit about 
your mental health services that you provide to non-homeless 
veterans through the Outside the Wire program if you could 
comment on that and how that works because to me that is 
another opportunity to reach out and prevent the veteran from 
becoming homeless.
    Mr. Peck. It is. So you can largely--I mean, no two stories 
are the same, but there is some kind of disturbance in their 
lives and that is around employment or mental health or 
substance abuse, and sometimes that is lack of skills. So if 
you really provide robust mental health and employment 
services, you can prevent a lot of homelessness.
    Our Outside the Wire program was started in Long Beach 
about 5 years ago when we started a residential program for 
post-9/11 veterans, all of whom were homeless, all of whom had 
post-traumatic stress. And in reaching out to them, we found 
many of them at their local community colleges and realized 
that there were many many post-9/11 veterans at the community 
colleges. And they were the veterans by and large who were 
experiencing some kind of challenge. They weren't fully ready 
to go to a 4-year college. They thought they would try the 
community colleges to try to get some skills.
    And in talking to them, we realized that a lot of them had 
mental health issues, and largely, it was around post-traumatic 
stress. So we began raising money to provide mental health 
services at the veteran resource centers in the community 
colleges, and now we are at 13 community colleges in L.A. and 
Orange County providing free confidential mental health 
counseling.
    A number of the young veterans also don't want to go to the 
VA. They think they are a bunch of old guys there like me. And 
they think, well, you know, that is not my place. That is an 
older veterans' place and I don't want to go there. And we all 
know there is a lot of stigma associated with mental health, 
and as you said, they don't want to admit the fact that they 
can't handle their problems.
    So part of the challenge with the Outside the Wire program, 
although we are seeing a lot of veterans at those colleges, it 
is simply getting them to walk in the door. And we are 
continually trying to find new ways to make it easier for them 
to come in. The fact that we are right there at the Veteran's 
Resource Center, you know, and we have fliers there, it means 
that they can come in and talk. They don't have to talk about 
their mental health; they can talk about anything.
    But, you know, through that process of communication, we 
hope that if they have mental health issues around post-
traumatic stress that they will begin to talk to the 
psychologists. So we are constantly learning with that program.
    Mr. Wenstrup. Well, thank you very much.
    Mr. Takano?
    Mr. Takano. Great. Thank you.
    Mr. Ramirez, Ms. Harmon, you might want to weigh in on 
this. You mentioned something about Housing First and the 
necessity for--we still need transitional housing, that we 
can't throw that out. And I seem to recall this emphasis on 
Housing First has maybe reduced our resources in terms of 
temporary and transitional housing. But do you have a comment?
    Mr. Ramirez. Well, at least I am not suggesting that 
Housing First is a bad policy.
    Mr. Takano. No, I am not saying you are. I mean, I think it 
is a good policy, but I think I have heard from some of our 
members of the community that have told me that Housing First 
is great in a lot of ways but we can't eliminate the--we still 
have a need for--
    Mr. Ramirez. Right.
    Mr. Takano [continued].--the transition and temporary.
    Mr. Ramirez. Right. Correct. And what I think my point is 
that Housing First, you know, it should focus, I think, 
rightfully so on ultimately reaching housing, but housing alone 
does not mean success. And it cannot just mean here, here is a 
house, here is a key and move in. It has to include all of the 
services leading up from the first time that we meet the 
homeless person, the homeless veteran, until after they move 
in. And along the way that means job training, job 
introduction, job navigation, housing training, and maybe some 
transitional housing, and eventually, production of actual 
units.
    And that is why I think both Carrie and I were suggesting 
that we needed to improve and increase those affordable housing 
resources, and, as part of those affordable housing resources, 
that there be mandated an inclusion of funding for case 
management and for housing navigation and for employment 
training, and that you don't say because we are focusing on 
Housing First, we are not going to do transitional housing 
because then it leaves a person that has to go find that 
affordable unit.
    Mr. Takano. Real quickly because I want to get to some 
other--do we need more resources for transitional housing?
    Mr. Ramirez. Yes.
    Ms. Harmon. Yes.
    Mr. Takano. Is that one of the missing pieces?
    Mr. Ramirez. Yes.
    Ms. Harmon. Yes. HUD is moving away from defunding it, and 
it has caused a lot of disruption in continuum of care, which 
does do a good job. I started at U.S.VETS as an AmeriCorps 
member. It is how I got into servicing homeless veterans. And 
the VIP program is basically designed to be a 90-day to 6-month 
program where you get a job, get some support around you, and 
then take off from there. It is a very effective program, and 
it really helps guys exiting substance abuse, inpatient 
substance abuse because, you know, outreach workers will tell 
you, you can't get your pockets right until you get your mind 
right. So they dealt with the substance abuse disorder, and 
they just need a little more structure to make it on their own 
and to protect that sobriety.
    Mr. Ramirez. They are defunding it because it is not deemed 
housing, and so in the move to Housing First, then the things 
that cause us to take housing is not deemed housing.
    Mr. Takano. I just want to make sure my Committee staff 
connect with this issue. I would love to spend more time on it, 
but I want to get to some other issues. But thank you for 
highlighting. Ms. Harmon, before I move on, though, you listed 
a list of programs that you said needed more help, and they 
weren't necessarily veterans' programs, but they somehow seem 
to be interconnected with our ability to address veterans' 
homelessness. You mentioned the HOME program, CDBG, Section 8. 
Those aren't, strictly speaking, veterans-specific programs, 
but you seem to be--you know, you were in a hurry to sort of 
mention these things. Can you give a little more time to kind 
of explain what you were talking about?
    Ms. Harmon. So I firmly believe we already have the right 
tools and we don't need to reinvent the wheel so to speak to 
serve veterans. We need to make veterans a priority in our 
community and use existing Federal programs. And so we need 
them funded, and we need to be told you need to have a plan 
because you have to have a plan to spend CDBG funds, HOME, that 
includes top priority for veterans' housing units, top priority 
for--like CDBG can fund employment programs for low-income 
veterans. So fully fund that program, but tell us veterans have 
to have a priority when you disburse the funds locally. And 
then you don't have to create a new program. It forces us not 
just at the VA or nonprofits to deal exclusively with veterans, 
to integrate veterans' services more seamlessly into our 
existing community so they don't have to go to these standalone 
agencies like the VA hospital, which is 40 miles away from some 
parts of Riverside County, to go in the door as a veteran.
    Mr. Takano. Well, thank you.
    Mr. Ramirez. Congressman, if I can add just a piece--
    Mr. Takano. Sure.
    Mr. Ramirez [continued].--to it if you don't mind. I agree 
with Carrie, first of all, that we do have the tools, and HOME, 
CDBG, Section 8, low-income housing tax credits, all those 
things help to produce units. And who goes into those units 
ultimately, it could be a veteran or it could be just a low-
income person. So we already have figured out how to make those 
things work.
    What I think is needed is that, number one, we need 
additional funding to make that happen. And, for example, in 
the HOME program, the HOME program allows for production of the 
units, but then it does not allow for the subsequent case 
management to go and operate that unit. So it is--go building a 
unit and then you are done building the unit.
    And in the Section 8 program, for example, the Section 8 
program does not allow for the operation of a housing 
navigation in order to successfully introduce the person to the 
units and just because it is focused on a different thing. And 
I believe that it should allow for eligibility of use in a 
broader way, in a more flexible way.
    Mr. Takano. So we need to connect these themes that go with 
veterans' homelessness and generic homelessness. There is a lot 
of ways in which these programs can be structured to be more 
flexible so we really are able to serve veterans more fully 
with the broad array of even programs that aren't strictly 
funded. And I hear we need more funding.
    If I may, I want to turn to Mr. Peck. I think what bears a 
little more explanation or what I would like to hear more about 
is this HVRP, this conundrum that you focused on in your 
testimony, the conundrum of the HVRP and the fear of losing the 
voucher and then not being able to fully do the training that 
we need.
    Mr. Peck. Yes.
    Mr. Takano. And if you could just sort of tease that out 
some more for us.
    Mr. Peck. So the issue that I mentioned, which is that it 
acts as a disincentive to some veterans. And this is not just 
us; I have talked to many agencies across the country and this 
is always the case. And the veterans who are struggling are 
very vulnerable. They are afraid of what their future is going 
to look like.
    So if you say to them ``I am going to work with you over 
the next 3 months, it is going to be really, really hard, but 
at the end of that you are going to get a job,'' or, ``would 
you like a voucher next week?'' Right? It is acting as a 
disincentive for them to go through that difficult period where 
they are going to have to really work hard, really overcome 
some of the habits that they have picked up when they were 
homeless to complete that course and give up the freebie 
basically.
    The vouchers are incredibly important for those people who 
cannot return to employment for families, for people who, 
really, that don't have any options. Those who are using that 
voucher short term for education, for instance, it is an 
incredibly good use of that voucher.
    For some who are marginal, who are not sure whether they 
can go back to work or not, they are opting for a life of 
dependence as opposed to going out, getting the skills, and 
finding a job. And I think that really is a disservice to them, 
and we try to--to me, it is not working to the veteran's 
skills. It is working to their weaknesses, and I think we have 
to be very careful about that.
    Mr. Wenstrup. Can I--
    Mr. Takano. Go ahead, please.
    Mr. Wenstrup. You know, we in the House side, we passed 
H.R. 474, and I would love it if you would take a look at that, 
Mr. Peck. We are hoping the Senate will respond in kind because 
it expands the eligibility for HVRP to veterans in the HUD-VASH 
housing.
    Mr. Peck. That would be terrific.
    Mr. Wenstrup. And that is really what we are after. If 
you--
    Mr. Peck. Yes.
    Mr. Wenstrup [continued].--think there is something more we 
need along those lines, we would love to hear from you. So take 
a look at how it is constructed. It has passed out of the 
House. We are hoping the Senate follows and that we can move 
that forward.
    Mr. Peck. I think that would be brilliant. Then they 
wouldn't have to make that choice, right? Then they could use 
the voucher--
    Mr. Wenstrup. Right.
    Mr. Peck [continued].--or what it is meant to be to help 
them to the next level, and then that voucher, in turn, would 
rotate to another veteran who needed it so it would be the best 
of both worlds.
    Mr. Ramirez. I am sorry. May I make a comment?
    Mr. Wenstrup. Yes.
    Mr. Ramirez. I think Mr. Peck makes a good point. However, 
what I find to be the problem in what he is describing is the 
extremity of the scenario. And so if you move to the other 
extreme, you are going to end up with another problem. And I 
believe that if you say you can only have the voucher for 6 
months and after that you have to move on or you have to have a 
plan, there is going to end up another collateral consequence 
that we don't want to have to end up. And maybe the flexibility 
needs to be given at the local level to the case manager that 
is working with the person instead of setting these limits, 
this line in the sand because then you end up with something 
else that you weren't foreseeing.
    Mr. Wenstrup. And I don't think this bill does that. The 
flexibility is on the HVRP side and not so much with the 
voucher side. So I appreciate--go ahead--
    Mr. Takano. If I could get one more--yes.
    Mr. Wenstrup. Mr. Takano.
    Mr. Takano. I appreciate your generosity.
    Mr. Nguyen, I think we have had this conversation. I recall 
this conversation at some point, but you mentioned about the 
real estate agents often not being willing or able to work with 
veterans on the VA loan issue. And you gave the example of 
Dennis. Did Dennis ever find a real estate agent that he could 
work with for the VA loan? Or how did Dennis get--did he use a 
VA--but anyway, I just want you to kind of elaborate a little 
more on this issue and--
    Mr. Nguyen. Simply put, the VA loan in the past has a PR 
problem or it had a PR problem that never was overcome. The VA 
loan established in 1944 as an entitlement has never had--
essentially, you have a VA loan without the wraparound support 
services for outreach education. So you have a benefit that you 
are relying on real estate professionals and lending 
professionals who are not educated on the changes, or they are, 
or through lack of education, they are biased against it. And I 
can cite thousands of cases like Dennis's where we have been 
approached and even a study from the VA in 2010 when veterans 
who got a housing loan, why didn't they use the VA loan? And 
they said that 8 percent of 10 percent of the real estate 
professionals and lenders discouraged them from using it. They 
said they weren't discussed about their benefit when they self-
identify.
    So I think the situation is lack of education to the 
industry. I believe that the VA is relying on lenders and 
realtors without providing them the education to doing it, to 
the supportive services to educate the veterans.
    Mr. Takano. Did Dennis ultimately get a VA loan or was that 
not part of his solution?
    Mr. Nguyen. Dennis actually worked--we assigned him a 
Marine who also was a realtor, and--hold on. Dennis, did you 
get a VA loan?
    Dennis. Yes, sir.
    Mr. Nguyen. He got a VA loan. He got a VA loan.
    Mr. Takano. So the Marine got it done.
    Mr. Nguyen. The Marine got it done. The Marine got it done.
    But the key, I think, with our program that he was running 
into and a lot of veterans, the veteran culture, as you know, 
it is a separate culture and it has not been recognized such as 
other minority cultures that can be tied to ethnicity or race. 
And so I think that when a veteran works with another veteran, 
the guard goes down and you are not seeing a lot of that. And 
so what Dennis was running into were civilians without any 
experience. Thus, he did not get the help he needed from vet to 
vet.
    Mr. Takano. Well, I am heartened to learn that the Chairman 
said we actually are going to engage this very topic next 
week--
    Mr. Wenstrup. Yes.
    Mr. Takano [continued].--in our hearings back on Capitol 
Hill. Mr. Chairman, I thank you for your indulgence, and I 
appreciate the extra time. And thank you so much. I yield back.
    Mr. Wenstrup. Thank you. If I could share a story, I know a 
Congressman who is a veteran, and he applied for a VA home 
loan, and he was told you better do it before the end of the 
year because you are in a job that is not guaranteed for the 
next 2 years. And that veteran is me, and I appreciate the 
reality of that. We got it done. So I understand the 
frustration.
    Dr. Ruiz?
    Mr. Ruiz. Thank you. Thank you.
    You know, I think there are some important themes that we 
need to highlight here, and I know that we are ending up, so I 
would like to mention those because I don't know if we are 
going to have another round. But one of the early themes that 
we all talked about is the lack of education outreach to our 
veterans. There are a lot of veterans out there that don't know 
these services exist. They are not being approached in a manner 
that will help empower them to make life decisions, choose 
wisely, and take advantage of the resources.
    That is something that I found when I did a health care 
initiative back in 2010, talking about health care access 
barriers. And many of the residents didn't know that the 
resources existed in the community. And when I did my veterans' 
initiative in 2013 where we went around and asked veterans 
about their life and the barriers and the issues and solutions, 
a lot of them also said that they didn't know that, hey, this 
organization existed that was present at these events.
    So I think that community collaborations and work is very 
important. I am going to start a veterans' university which 
will do just that, work on educating, and I invite all of you 
to participate and share the information, the resources, and 
the benchmark programs that some of you have successfully 
completed.
    The other theme that I want to really highlight is--and it 
goes along with the lack of education in terms of what the 
resources are is that they are fragmented, right? They all work 
independently. And I like the idea of a continuum of holistic 
care to our veterans.
    There has been talk about the continuum of health care of a 
person in uniform serving to when they are discharged and 
continue with their care with the VA health care systems. There 
is the idea of continuum holistic care when somebody is looking 
for their benefits, for example, and then once they apply or 
they have been denied and they want to appeal them, it goes to 
a whole different system with a whole new set of structures, 
but see it as a continuum of services for that veteran. And I 
think that we need to really address that as well for our 
purposes in the homeless care.
    And in saying that, the main categories that we all need to 
work together with the homeless population, something Mr. Peck 
alluded to is of course housing is very important, but that 
will not be as successful if we don't include mental health 
services and health care. We know that there are certain 
elements that veterans face in higher proportion than non-
veterans, PTSD, for example, of those who have been in combat. 
However, they are not immune to the mental health illnesses 
that the non-veteran community faces as well, like the 
biological incidences of clinical depression, psychosis, 
schizophrenia, et cetera, that also puts an individual at 
higher risk of being homeless.
    The other thing that we need to address within the mental 
health world is the addictions, addiction to drugs, addiction 
to alcohol that is also a confounding factor in a veteran's 
ability not only to get housing but also to get employment, 
right? And then of course the third and the fourth, which is 
employment and the job training and education. And it seems 
like there is a lot of spokes but we have to figure out a way 
where there is that hub, that one location, much like what we 
have in the nonprofit world that can act as caseworker or case 
managers that will tie all of those ends to better manage, to 
better have success with a veteran.
    So in saying that, and going along with health care, I am 
very interested in the notion of street medicine. Have you guys 
heard of street medicine? Do you know if--are you tied in with 
a street medicine program with your organization, doctors and 
nurse practitioners and health care providers that actually go 
find the veteran homeless person and take care of them?
    Mr. Ramirez. Yes. In fact, at the Hulen Place campus that 
exists in Riverside, the homeless shelter that we operate, 
there is a medical clinic in the campus itself. Health to Hope 
operates a center there, and it is specifically focused on the 
population that would go to the Hulen Place campus. And they go 
out into the community, along with our homeless outreach team 
that goes into the community, into the streets and identifies 
and engages the person that is in need. So they are actively 
working on not only identifying the person that needs the needs 
and then curing or identifying what might be the solution to 
that need. And then they have full-time medical attention at 
the campus as well, so something that we are working on 
expanding as well.
    Mr. Ruiz. Excellent. And I think U.C. Riverside, their 
family medicine program in Palm Springs, initiated that. I was 
supportive of their program and really encouraged them from the 
ground level, along with a collaborative that we are trying to 
form in the area because there is a redundancy of programs from 
different agencies that serve the homeless. And if we can 
collaborate with all the different agencies to maximize the 
value that we provide the homeless person and also connect them 
because, let's face it, street medicine is not the ideal method 
of providing medical care, but it is good temporarily. But the 
best thing that street medicine can do is bring them back in to 
a case management scenario where then we can fully integrate a 
veteran back into our society and being healthy and productive.
    So I would definitely love to hear more about how we can 
take those practices and start them throughout the entire 
Riverside County, especially in my district.
    I have an idea I wanted to test with you in terms of the 
need for more affordable housing. Just hearing you today, you 
know, I am working with the foster system and trying to recruit 
more foster parents because there is a lack of foster parents 
and housing for our foster kids. And so trying to find syzygy 
and synergy with that program, what about creating a program 
where we would train veterans to house homeless veterans in 
their personal home and have those individual veterans have 
incentives like whether it is tax breaks or stipends or a 
certain payment and having like a home--
    Mr. Takano. It is a like a foster--
    Mr. Ruiz [continued]. Like a foster, yes, like something 
like that where that veteran's home now becomes like a health 
home that is integrated within a network of services for a 
veteran.
    Mr. Ramirez. I think that is a great idea. I think it does 
a lot of different services to not only the veteran that is 
coming into the home but also the veteran that is receiving the 
veteran. There are some supportive services, there is some case 
management available, there is some ability to interact between 
the two people that have the same experience, there is some 
housing that gets provided. I think there is a lot of merit and 
we should really pursue it.
    Mr. Ruiz. Okay.
    Ms. Harmon. I also agree that that model could be very 
effective. You know, a house is not just an apartment. You 
know, so many times I have handed a veteran a key, and that is 
not the end of the road because really a house is feeling 
connected, it is having visitors, it is a sense of belonging 
somewhere. And I think that that can help a veteran feel that 
they are back part of something. And you can always use another 
person on your team.
    I just wanted to sneak in with your idea of a street 
medicine program, and I think a lot of times people don't want 
to talk about their homeless issue but they will talk about the 
sore on their leg. It would be great if those type of mobile 
clinics could have a substance abuse counselor on there, 
somebody who is an expert, because while we sent outreach 
workers out in the homeless realm to identify people who don't 
have housing, we need substance abuse counselors out in the 
streets in encampments to bring people in and to help recovery 
happen in the streets, not when they walk in the door as well.
    Mr. Ruiz. Any comments on this side?
    Mr. Peck. If I could, I think it is an interesting idea 
that you bring up. Homelessness to us, the solution for 
homelessness is all about rehabilitation. It is about recovery 
from a variety of things. There are a number of things that 
happen to these veterans that made them homeless. And I would 
be reluctant to put someone with a mental health and a 
substance abuse issue into someone's house, right, who wasn't 
equipped to take care of it. So we would have to be very 
careful there--
    Mr. Ruiz. Of course.
    Mr. Peck [continued].--into who we placed where, that they 
were adequately prepared--
    Mr. Ruiz. Trained--
    Mr. Peck [continued].--to handle the issues that would come 
up. Not all of our veterans are likeable guys--
    Mr. Ruiz. Yes.
    Mr. Peck [continued].--but, you know, we don't judge that.
    Mr. Ruiz. Yes.
    Mr. Peck. They have been through a lot. A lot of them have 
every right to be angry with the way their lives have gone, and 
that takes a professional to really march them through that, 
help them, walk by their side until such a point as they can 
accept the fact that they are where there are and they are 
ready to move forward. So it has--
    Mr. Ruiz. Well, one model that works really well is the AA 
model, the Alcoholics Anonymous model, where you have a coach--
    Mr. Peck. Right.
    Mr. Ruiz [continued].--and somebody who has been through it 
but somebody who understands and somehow has the training to 
intervene during crisis situations--
    Mr. Peck. Right.
    Mr. Ruiz [continued].--in case somebody wants to take a 
drink and--
    Mr. Peck. Right.
    Mr. Ruiz [continued].--have somebody to talk to. So I think 
that there are ways that there could be specific intelligent, 
smart training and placement to match the right homeless 
veteran with the right coach, for example.
    Mr. Peck. Right.
    Mr. Ruiz. Before I give up my time, anybody want to comment 
on that?
    Mr. Nguyen. I would echo Mr. Peck's statement. I think with 
the proper vetting of the right foster family so to speak--
    Mr. Ruiz. Yes.
    Mr. Nguyen [continued].--I think the byproduct that you are 
going to get is peer-to-peer counseling.
    Mr. Ruiz. Yes.
    Mr. Nguyen. You shared the same thing, as you said, with 
the AA.
    Mr. Ruiz. Yes.
    Mr. Nguyen. So I think it is a great idea. When is that 
happening?
    Mr. Ruiz. Thanks for asking. I think that is a good 
question. Anyway, I yield back my time.
    Mr. Wenstrup. Well, thank you. You know, this really has 
been great. You know, I came from the snow in Ohio today, so 
for a lot of reasons, it was well worth the trip. And I thank 
you all for taking time. I thank you for what you are doing 
each and every day.
    You know, I think the things we come away with are--and we 
have all known this--there is no one answer for every veteran 
that we face. There are a lot of different circumstances. But 
it would be nice if we were better coordinated with the things 
that we have to offer and more flexible with the things that we 
have to offer to match an individual's needs. And I think that 
is something that is difficult when you are talking about, you 
know, broad spectrum across the country, but we need to keep 
embracing that and trying to drive that so that more people can 
be taken care of for what their needs are.
    And before we adjourn, I want to just extend my thanks to 
the students and the staff and the administration at Riverside 
City College for hosting us and our witnesses, obviously for 
you taking the time to be here with us. But I am also impressed 
with the number of people that are here, whether you are 
veterans or just concerned. We appreciate you being here to 
take the time to take an interest in taking care of our 
veterans. Without them, we have nothing.
    So finally, I ask unanimous consent that all Members have 5 
legislative days in which to revise and extend their remarks 
and include any extraneous material on today's hearing. Hearing 
no objection, so ordered.

    [The attachment appears in the Appendix]

    Mr. Wenstrup. And the hearing is adjourned. Thanks.

    [Whereupon, at 4:22 p.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Emilio Ramirez

Introduction

    Chairman Wenstrup, Ranking Member Takano and members of the 
Subcommittee on Economic Opportunity, I am grateful to be invited to 
testify before you today on behalf of the City of Riverside regarding 
our collaborative efforts to combat chronic homelessness and our work 
to end homelessness amongst our honored veterans. We appreciate your 
attention to continuing this good fight and for your effort in 
``Finding Solutions for Veteran Homelessness in Southern California.''
    This hearing is both significant and timely for the region because 
accepting and succeeding in the Mayor's Challenge to End Veteran 
Homelessness required real collaboration among many different partners, 
including federal, state and local jurisdictions, as well as many 
private partners. If we are going to have a chance at a permanent 
solution for veteran and chronic homelessness, we need that 
collaboration to strengthen, grow and continue. The City of Riverside 
is encouraged by the success in the Mayor's Challenge to End Veteran's 
Homelessness, and by the prospect of developing a regional plan in 
partnership with our neighboring jurisdictions to address homelessness 
across the region. We have not yet formally engaged our federal 
partners but I see no better time to invite you to this effort than 
now.
    The City of Riverside Homeless Services Program was established to 
connect homeless individuals with social services and housing. The City 
has taken a pro-active approach to addressing homelessness in our 
community by cultivating partnerships with the County of Riverside, a 
wide-range of non-profit organizations, social service agencies and 
faith-based institutions.

Partnerships

    Riverside has created a centralized environment to provide short-
term emergency shelter, coupled with a range of complimentary 
supportive services that are necessary to assist homeless individuals 
and families achieve housing stability.
    The City has found success with the Housing-First model and 
evidence-based case management to help individuals exit life on the 
streets and transition to self-sufficiency. The Housing First Model 
emphasizes moving homeless individuals into housing as quickly as 
possible and provide the appropriate level of services to support 
housing stabilization and retention.
    The Riverside Homeless Services Campus on Hulen Place includes the 
Path of Life Riverside Community Shelter, ``The Place'' Safe Haven 
Supportive Housing and Drop-In Center and the City operated Multi-
Service Access Center. Together, this partnership provides short-term 
emergency shelter, meals, case management, a pet kennel, medical 
services and permanent supportive housing for those with mental health 
concerns. Collaboration is the key to our success. Our on the ground 
partners include:

    1. Health to Hope Medical Clinic
    2. Social Security Administration
    3. California Department of Motor Vehicles
    4. Path of Life Ministries Community Shelter
    5. Path of Life Ministries Family Shelter
    6. Set Free Ministries
    7. U.S. Department of Veterans' Affairs
    8. Riverside County Housing Authority
    9. Riverside County Department of Mental Health
    10. Riverside County Department of Public Social Services
    11. U.S. Vets
    12. Lighthouse Social Services
    13. Foothill Aids Project
    14. Roy's Desert Resource Center
    15. MFI Recovery Center
    16. Cedar House
    17. Riverside Treatment Center
    18. Riverside Police Department
    19. Riverside Probation Department
    20. Riverside Sheriff's Office
    21. Riverside Parole Office
    22. Coachella Valley Rescue Mission
    23. Operation Safe House
    24. Riverside Unified School District
    25. Alvord Unified School District
    26. Riverside County Animal Services
    27. Arlington Temporary Assistance
    28. Salvation Army
    29. Catholic Charities
    30. Community Connect
    31. Community Settlement Association
    32. Family Service Association
    33. YMCA Riverside
    34. Goodwill Resource Center
    35. Department of Rehabilitation
    36. Riverside Transit Agency
    37. Riverside Community College
    38. California Baptist University
    39. University of California, Riverside
    40. California State University San Bernardino
    41. Intercoast College
    42. Harvest Christian Fellowship
    43. Kansas Seventh Day Church
    44. Our Lady of Perpetual Help
    45. Calvary Presbyterian Church
    46. First Congregational Church

    In addition to overseeing operation of the entire campus, the City 
operates a Multi-Service Access Center. The City's Access Center 
provides an entry point and service hub to the City's Continuum of 
Care. The Access Center provides a wide-range of services under a 
single-roof: homeless prevention resources, homeless street outreach, 
basic needs emergency assistance, transportation assistance, housing 
navigator services, employment development, benefits enrollment, health 
care, mental health services, substance abuse recovery, veteran's 
services, life skills training, financial counseling, legal services, 
access to a telephone and computers, and a permanent mailing address.

Programs

    The City's homeless services staff operate a menu of programs 
designed to provide holistic supportive services.

Homeless Outreach Program

    The Homeless Outreach Team is comprised of four service providers 
who conduct daily mobile outreach and client service engagement for 
homeless individuals and families on the street, in service venues, and 
around town. The Outreach Team responds to people in need of 
assistance, as well as local residents and businesses in the community. 
The Outreach Team focuses on those ``hardest to reach'' and ``service 
resistant'' homeless individuals. The Outreach Team partners with other 
city staff, local services providers, health professionals, law 
enforcement and the community at-large to help people get off of the 
streets and connect to services they need to gain stable housing and 
achieve self-sufficiency. Local service providers and community 
volunteers participate in ``ride-alongs'' to help engage people in 
need.

Navigating Back Home

    Once the Homeless Outreach Team is able to identify and build a 
rapport with homeless individuals living on the streets, vehicles and 
places not meant for human habitation; the team transports the homeless 
individual to the Riverside Access Center to begin the housing process. 
At the Riverside Access Center, there are two full-time housing 
navigators assigned to assist individuals and families break the cycle 
of homelessness by moving them from the street to interim housing, 
accessing necessary social services, and rapidly obtaining permanent 
housing. The housing navigators provide individualized client support 
throughout this entire journey by assisting each client develop a plan 
to address their barriers, increase their income, and maintain and 
sustain permanent housing. As part of the client's case management 
plan, the housing navigator will identify each area in which clients 
will need assistance to accomplish the outlined goals and objectives 
such as scheduling appointments, applying for mainstream benefits and 
identifying subsidized housing. The housing navigator's level of case 
management is intensive and requires extensive time and commitment to 
each individual client. The housing navigator's overall goal is to 
assume full responsibility for their clients' success in securing and 
maintaining permanent housing utilizing a housing first approach.

Tenant-Based Rental Assistance

    This program provides eligible homeless individuals and families as 
well as those at-risk of becoming homeless in the City with short-term 
rental subsidies coupled with home-based case management. This effort 
currently includes HUD funded Permanent Supportive Housing Program; the 
Veteran's Administration Supportive Housing initiative administered by 
U.S. Department of Veterans' Affairs and the Housing Authority of the 
County of Riverside, the City's HOME-funded Tenant Based Rental 
Assistance program and the Shelter Plus Care ``Street to Home'' 
Project.

Permanent Supportive Housing Program

    The City operates a Permanent Supportive Housing Program, funded 
with an annual allocation through the HUD Continuum of Care Supportive 
Housing Program to support development and operation of two permanent 
supportive housing communities for sixteen households. One of the 
communities provides supportive housing specifically to chronically 
homeless individuals and the second community provides supportive 
housing to homeless with disabling conditions. On-going case management 
and supportive services are provided to participants to help ensure 
housing stability.

Veterans' Affairs Supportive Housing Initiative

    The Obama Administration has set a goal of ending homelessness 
among veterans over the next five-years. The Department of Veterans' 
Affairs is working in collaboration with the Housing and Urban 
Development Department to provide targeted housing choice vouchers to 
homeless veterans throughout the country. Locally, the VA Loma Linda is 
working in collaboration with Housing Authority of the County of 
Riverside, the Homeless Outreach Team and other continuum of care 
partners to assist homeless veterans with moving off the streets and 
into permanent supportive housing. The Veterans' Affairs Supportive 
Housing Initiative provides a veteran the ability to choose where they 
live and ensure that their housing choice is affordable.

Housing First Initiative

    The City is working with community partners to implement the best 
practice ``Housing First'' approach which emphasizes moving people into 
housing as quickly as possible and provide the appropriate level of 
services to support housing stabilization and retention, into all 
aspects of our local continuum of care. The Housing First approach 
represents a significant shift away from the traditional homeless 
service delivery system to one focused on homeless prevention, rapid 
re-housing and home-based case management to facilitate client 
stabilization leading to self-sufficiency.

Mayor's Challenge to End Veteran's Homelessness

    The Mayor's Challenge is a nationwide effort to end veteran 
homelessness in the United States. In June 2015, Mayor Rusty Bailey 
eagerly accepted the challenge. Our identified goal was to permanently 
house 86 homeless veterans in City by December 31, 2015. Through 
dedicated and diligent outreach efforts, 86 homeless veterans were 
identified in the City of Riverside. These veterans were living on the 
streets, parks, shelters, vehicles and other places not meant for human 
habitation. Many of these individuals were suffering from physical 
disabilities, mental illnesses, substance abuse disorders, and lack of 
social infrastructure. Through collaborative efforts with community 
partners such as the Department of Veterans' Affairs, the Housing 
Authority of the County of Riverside, Department of Mental Health, 
Department of Public Social Service, U.S. Vets and Lighthouse, we were 
able to provide permanent housing interventions for 89 homeless 
veterans by December 31, 2015. We exceeded our goal by using a housing-
first approach, through coordinated outreach efforts, by creating a 
prioritized by-name list of all of Veterans, and with weekly case 
conferencing with our service partners. The team's dedication and 
efforts were wide-ranging and included activities such as physically 
assisting with the move-in, providing security deposits and utility 
assistance, and obtaining various donations from businesses and faith-
based organizations within the community to ease in the transition. 
Through community collaboration, each of us can find a way to show our 
gratitude and give back to those men and women who proudly served us. 
In doing so, we can help ensure that veterans have a safe place to 
permanently call home.

25 Cities Initiative

    The 25 Cities Initiative is a key Federal strategy through which 25 
cities are receiving technical assistance and are mobilizing local 
planning efforts and partnerships to create effective systems for 
aligning housing and services interventions through coordinated systems 
to end homelessness. Led by the Department of Veterans' Affairs, in 
partnership with the Department of Housing and Urban Development and 
the Interagency Council on Homelessness, the goal is to assist 25 
cities in accelerating and aligning existing efforts to create 
coordinated assessment and entry systems, laying the foundation for 
ending all homelessness (including homelessness among veterans) in 
these communities. Riverside County is one of 25 cities across the 
nation selected to participate. This initiative recognizes that ending 
veteran and chronic homelessness requires strong coordination between 
all partners and stakeholders who are working together in our 
community. During regular case conferencing city partners and service 
providers meet to match homeless individuals and families with 
available housing resources and rapidly place homeless individuals and 
families into housing.
    Many of our housing programs offer special incentives including 
paying security deposits, guaranteed rent payments, pre-screening of 
clients, and intensive case management services. Riverside has created 
and implemented a coordinated entry system which includes a common 
assessment tool known as the Vulnerability Index & Service 
Prioritization Decision Assistance Tool, coordinated outreach efforts, 
the creation of a by-name list of individuals and families experiencing 
homelessness throughout the County of Riverside, and weekly case 
conferencing. Riverside County continues to cultivate partnerships with 
community members, with service providers, businesses, faith-based 
organizations, and educational institutions, inviting them to join this 
ongoing effort to end homelessness in our nation.

Riverside Ending Homelessness

    A collaborative effort between Community Connect, Today's Urban 
Renewal Network, Riverside Downtown Partnership, Arlington Business 
Partnership, Path of Life Ministries, the Housing Authority of the 
County of Riverside, and the City, has produced the Riverside Homeless 
Reduction and Prevention Strategy Five-Year Plan. The Five-Year plan 
sets forth focused strategies to help individuals and families move 
toward self-sufficiency. The Riverside City Council formally adopted 
the Five-Year plan in late 2012. This Five Year Plan is attached for 
your reference. Additional information can also be found at the 
Riverside Ending Homelessness website (www.endhomeless.info)
    This Five Year plan launched the Riverside Ending Homelessness 
effort, calling for the provision of a comprehensive menu of services 
from basic needs to employment, education and housing. We are making 
progress toward this goal, but still have a long way to go. We have 
created the Riverside Ending Homelessness non-profit and established 
its governing board of directors from the spectrum of the community. We 
have seeded the Riverside Ending Homelessness Fund and continue to help 
it grow. We have a plan for expansion of basic services at the Hulen 
Campus and are now undertaking a fund raising effort for the $3,000,000 
needed for expansion.
    My verbal testimony will focus on the Riverside Ending Homelessness 
effort.

Regional Effort

    Building upon the positive momentum created through the City's work 
to end veteran homelessness, the City is actively reaching out to all 
neighboring jurisdictions in Western Riverside County to encourage the 
development of a regional plan that more broadly addresses 
homelessness.
    Recognizing that homelessness is not a condition unique to any one 
jurisdiction, the City will invite representatives from each 
jurisdiction in Spring 2016 to help craft a plan through a 
collaborative development process that not only identifies the 
challenges faced but builds upon the efforts currently being undertaken 
by each jurisdiction. It is the City's hope that the resulting plan 
will strengthen working relationships and serve as a foundation for 
improved cooperation throughout the region.

Into the Future

    All of the partners and service providers are dedicated, passionate 
and committed to ending homelessness. Staff from the Department of 
Housing and Urban Development and the Department of Veterans' Affairs 
are always helpful and responsive. There is always so much opportunity 
for improvement. A few items that we suggest that would assist current 
efforts to help to end chronic homelessness include:

    1.  Mandate implementation of Evidence Based Case Management in any 
programreceiving federal funds and provide the necessary funding to 
allow for its effectiveinclusion. It is difficult for many clients to 
acclimate to indoor living. The Critical TimeIntervention model, which 
has 3 phases of case management, has demonstrated tohave a 90 percent 
housing retention rate.
    2.  Incentivize a regional approach and coordination of homeless 
services to encouragelocal governments to work together.
    3.  Incentivize landlords and hotels/motel establishments to 
provide 30-90 dayemergency housing vouchers. There's a shortage of 
landlords due to the stigmaattached to housing programs including the 
Housing Choice Voucher Program. It isimportant for our community 
leaders to reach out to rental and realtor associations,property 
management companies and private owners to educate them on howservice 
providers have restructured their housing process. Five years ago, 
we(meaning housing providers) were placing clients in inappropriate 
housingprograms. It's important to recognize our flaws and most 
importantly identify whatwe have done, collaboratively, to restructure 
our program requirements and developa coordinated system that better 
serves our clients and landlords.
    4.  Create a mitigation fund for landlords willing to take a chance 
on renting to ourveterans.
    5.  Provide motel vouchers so desperately needed for those veterans 
that absolutely refuse to enter the shelter. We will continue to lose 
veterans if we cannot temporarily provide them with a place to stay.
    6.  Provide incentives to large and small businesses to hire 
formerly homeless veterans.
    7.  Provide funding for housing navigator positions.
    8.  Provide a method of recognizing organizations that partner with 
local governments/regional partnerships to end veteran homelessness.
    9.  Provide funding dedicated for capital improvements and 
operational expenses for facilities that provide coordinated services 
and meet basic needs.
    10.  Maintain and expand existing program, as they are valuable and 
needed.

    If we are dreaming about truly being able to end homelessness for 
any person or the homeless population, then we propose the creation of 
a new program with an added value.
    Following the life of a person suffering from homelessness from the 
street to housing success can give us a guide to a new potential 
effort. Would it be possible for Housing and Urban Development to join 
efforts with Veterans' Affairs to create a holistic program aimed at 
ending homelessness?
    Can we expand the Supportive Housing Program to include allowing 
for actual production of affordable housing units appropriate for the 
formerly chronically homeless along with a mandated case management 
system and partnered with housing and employment navigation? Can 
Veterans Affairs also take on that expanded Supportive Housing Program 
example and create a similar program dedicated for the homeless 
veterans? Can we create a Housing First Supportive Homeless Program?
    Success in the Mayor's Challenge and the 25 Cities Initiative 
effort proved that a housing first model is effective but also 
demonstrated the efficiency required of the holistic menu of supportive 
services. While permanent supportive housing with case management is 
effective and HOME program production of affordable housing is 
valuable, they are not enough. We cannot sacrifice the delivery of 
housing navigation and supportive services. Housing navigation and 
supportive services are key because they are able to introduce the 
person in need to the opportunity available.
    We have seen firsthand what is possible when regional coordinated 
efforts and a full spectrum of resources are aligned and focused on a 
specific need. We can engage a team of dedicated and qualified 
professionals to help guide individuals and families through every 
stage, from the street to a home. This represents a genuine effort to 
effectively implement the Housing First model and is not a band aide 
approach dependent on overnight shelter beds.
    The new program needs to address tangible barriers to housing by 
focusing on the individual's immediate and basic needs and offer 
multiple opportunities for contact with caring housing navigators, case 
managers, medical providers, education consultants, employment trainers 
and mental health professionals while consistently increasing the 
availability of affordable housing units to increase the chances for 
success.
    To aid the transition into long-term housing stability, we could 
provide funding for an employment program aimed at empowering 
individuals to obtain the necessary skillset to successfully reenter 
the workforce and sustain gainful employment.
    To be successful, the Housing First Supportive Homeless Program 
would fund the team described above who would be fully dedicated to 
achieving housing success, where a shelter bed is not the objective. 
The Housing First Supportive Homeless Program would add funding for 
development of housing units specifically available to the formerly 
chronically homeless. The program would fund opportunities to acquire 
and rehabilitate existing homes within established neighborhoods where 
community reintegration can thrive. The employment program will inspire 
the community stakeholders to participate, promote, and stimulate 
program growth while contributing to the success of the individual.
    A partnership between HUD and the VA could launch a new initiative 
based on the lessons learned in the Mayor's Challenge and pursue a 
similar success on a larger scale.
    We thank the Chairman, Ranking Member, and the Subcommittee Members 
for your time, attention, and devotion to this cause. As always, we 
welcome your feedback and questions, and we look forward to continuing 
to work with this subcommittee, the House Committee on Veterans' 
Affairs, to ensure the success of all generations of veterans.

                                 <F-dash>
                  Prepared Statement of Carrie Harmon
Chairman Wenstrup, Ranking Member Takano, and distinguished members of 
    the Subcommittee on Economic Opportunity:

    Thank you for the opportunity to appear before this Committee 
today. On behalf of our County, I would like to thank you for your 
leadership and support which has been instrumental in providing local 
communities with the resources needed to serve the nation's most 
vulnerable veterans. As the representative from Riverside County, I 
have the opportunity to speak on behalf of the county departments and 
the partnering agencies that are actively engaged in our local fight 
against veterans' homelessness. I also have the humble opportunity to 
represent the homeless veterans in our county, many of which are now 
housed, that have been assisted through this united national effort.
    I am proud to report that our county has made significant progress 
in ending veterans' homelessness and we are very close to reaching the 
finish line. Over the course of the last two and half years we have 
housed over 1,000 veterans but most importantly we have also learned a 
great deal about what systems need to be changed and what more is 
needed to assist our veterans. The purpose of my testimony is to share 
this information with you and to provide some recommendations on how we 
can further refine our strategies to end not just veterans' 
homelessness but all homelessness within our communities.
    I am also honored to appear before you with my colleagues and in 
effort to not duplicate information my testimony will be focused on the 
following areas:

    <bullet>  Riverside County's progress, programs and initiatives; 
and
    <bullet>  Recommendations for the Committee's consideration

Riverside County's Programs and Progress

    Counties play a unique role in the fight against homelessness as 
the primary provider of public social services at the local level. 
While the Mayor's Challenge focuses on the efforts of cities to end 
homelessness, counties have substantial resources that can and should 
be marshaled for this effort. Additionally, counties have the ability 
to establish local policies and practices that have a major impact on 
the way veterans, homeless and low-income residents are serviced and 
prioritized within our communities. Riverside County has long 
recognized this fact and has assumed a leadership role in ensuring that 
veterans and affordable housing are top priorities for our 
jurisdiction. This leadership can be found most notably in the passage 
of the Veterans Assistance Legislation of Riverside County (VALOR) 
initiative in 2013 and throughout the County's numerous departments.

Veterans Assistance Legislation of Riverside County (VALOR)

    The Riverside County Board of Supervisors assumed the lead role in 
ending veterans' homelessness through the unanimous approval of the 
Veterans Assistance Legislation of Riverside County commonly known as 
the VALOR initiative in April, 2013.

    The purpose of VALOR is threefold:

    1.  The Board's public commitment to end homelessness among 
veterans ahead of the federal deadline;
    2.  A commitment to enact local policies that will assist homeless 
veterans with accessing the services and housing they so desperately 
need; and
    3.  The creation of the VALOR subcommittee which was tasked with 
implementing systems changes, enhancing services and most importantly 
identifying and housing homeless and at-risk veterans.

    Although spearheaded by the Board of Supervisors, VALOR was 
implemented as a public-private effort to rapidly house homeless 
veterans with an emphasis on engaging partners with the greatest 
resources to impact homelessness. Housing is always the first the 
priority using a ``housing first'' model of care. Secondary to the 
housing effort is the systems and service change that is necessary to 
move the entire homeless continuum of care into new mode of 
functionality which prioritizes permanent housing and the systematic 
matching of homeless individuals with an open housing unit. All of this 
is designed to move the county to ``functional zero'' for homeless 
veterans and the chronically homeless within the next year.

2014 Veterans Point in Time Count (PIT)

    To begin the VALOR initiative, we needed an accurate baseline count 
of homeless veterans to monitor our impact and progress. This baseline 
began with data from the 2011 Riverside County Point In Time Count 
(PIT) which determined that there were 890 homeless veterans in our 
communities. This count was followed by the 2013 count which found 179 
homeless veterans a significant decrease that drove a local debate on 
the reliability of the PIT to accurately gage need and demand for 
homeless veterans' services. In response to this debate, the County's 
Department of Public Social who serves as lead agent for the Riverside 
County Continuum of Care obtained grant funds to conduct a veterans-
only PIT count in 2014. This count determined that there were 290 
homeless veterans of which 173 were unsheltered and included a survey 
of encountered veterans which was used to drive supportive service 
programming. The results of this PIT and survey, the 2014 Veterans 
Homeless County and Survey can be found online at http://
dpss.co.riverside.ca.us/homeless-programs. The 2014 number became the 
initial number used to drive our strategy to eliminate veterans' 
homelessness in our area. Our next PIT is scheduled for January 27th 
and will include special efforts to reach veterans.

County Programs and Services

    As noted previously, counties have an array of tools that can be 
utilized to combat homelessness and to provide veteran-centric 
services. I would like to highlight the following departments and/or 
programs which play a primary role in Riverside County's response to 
veterans' homelessness.

    c  The Housing Authority of the County of Riverside
    Riverside County is home to one of the highest performing and 
progressive public housing agencies in the nation. The County's Housing 
Authority has achieved the ``High Performer'' designation from HUD for 
high quality management of its Section 8 program for fourteen 
consecutive years which puts it in an elite group of less than 10% of 
all housing authorities across the country. Moreover, the Housing 
Authority has implemented programs and services targeted to homeless 
and other special needs populations who require additional supports to 
obtain and maintain housing. In fact, our local housing authority is 
one of the very few that has its own homeless programs team complete 
with outreach workers and case managers. We believe fundamentally that 
a local public housing agency should be a one stop for all residents 
with housing needs especially those that are homeless. The Housing 
Authority operates daily on the principle that its primary mission is 
to restore lives, strengthen families and revitalize communities 
through the provision high quality affordable housing. The agency also 
offers a true public-private approach to housing through our 
partnership with Section 8 landlords who are instrumental in addressing 
homelessness. For this reason, the Housing Authority was tapped as lead 
for the VALOR initiative's housing efforts and brings to the fight 
against veterans' homelessness: existing partnerships with over 3,000 
local landlords and affordable housing developers; funding for 
affordable housing development; over 8,500 Section 8 vouchers; 469 
units of public housing; 539 VASH vouchers; 120 units of supportive 
permanent housing; 90 units of HIV housing; and 5 full time employees 
dedicated to homeless housing programs.

    c  The Department of Public Social Services
    The Department of Public Social Services (DPSS) serves as the 
administrative agent for the Riverside County and City Continuum of 
Care and receives approximately $7 million in funding annually from the 
U.S. Department of Housing and Urban development to provide housing and 
services to homeless individuals and families. The Riverside Continuum 
of Care was selected to participate in the 25 Cities Initiative and 
this project is being coordinated by DPSS. Under the 25 Cities, the 
County is aggressively moving all homeless services to a coordinated 
entry system that aligns the most vulnerable homeless veterans and 
chronically homeless with the first available housing unit. The system 
also includes a universal assessment system that is used to compile a 
master list of veterans in need of housing and a master list of 
veterans housed. These lists have fundamentally changed the way in 
which homeless veterans are identified and housed within our County.

    c  Veterans Services
    As noted earlier, counties provide a unique range of public 
services that must be coordinated to address the needs of veterans 
regardless of housing status. One such department is the Riverside 
County Office of Veterans Services which is specifically tasked with 
honoring and enhancing the quality of life for veterans in Riverside 
County through claims assistance, education, advocacy, and special 
projects such as the Homeless Veterans Stand Down. The Veterans 
Services department is an important entry point for many veterans who 
are seeking assistance through the County's various departments and/or 
seeking social service assistance through community agencies

    c  Workforce Development Services
    Riverside County serves the administrator and operator of the 
Riverside County public workforce system. Employment is critical to 
ending and preventing homelessness. Riverside County offers priority of 
service to all veterans seeking services within our center and has 
implemented the HIRE VALOR program which focuses on the employment 
needs of homeless veterans participating in the VASH program. We are 
also working in partnership with the City of Riverside to implement an 
on-the-job training program for residents of the Riverside Emergency 
Shelter in an effort to provide work based learning experience, recent 
work experience and opportunities to earn income while receiving 
training.

Riverside County Progress

    VALOR combined with the 25 Cities initiative has yielded the 
following results over the course of the last two and half years:

    1.  1,007 homeless veterans are now housed;
    2.  We have funded three new housing developments earmarked for 
veterans - March Veterans Village, Camp Anza, and Habitat for 
Humanity's Veterans Enriched Housing;
    3.  We have implemented a standardized assessment tool and piloted 
a coordinated entry system for the Continuum of Care; and
    4.  We have established an active list of all homeless veterans 
within our county who are still in need of housing and this list is 
reviewed weekly during a standing call with housing navigators and case 
managers.

Recommendations

    Although we have accomplished much, we have also learned that there 
are adjustments that can be made to further enhance homeless services 
for veterans at the community and national level. I would like to share 
these recommendations with you for your consideration.

    1.  There is an urgent need for additional units of affordable 
housing in the Southern California region for low income residents. 
Affordable housing is one of our best weapons in the fight against 
homelessness. We need to increase funding for the HOME program, Section 
8, and other similar programs that can provide opportunities for 
communities to further expand the local supply of affordable housing 
units. These new communities must include units earmarked for homeless 
individuals and families. Veterans should receive top priority on 
waiting lists for these units.
    2.  Identification documents should not be a major barrier to 
housing but they continue to be a significant barrier for homeless 
individuals and veterans. We have allocated millions of dollars to 
housing programs only to have a homeless veteran with a VASH voucher in 
hand sit homeless awaiting a state issued ID or birth certificate which 
is almost always required to rent an apartment. This is unacceptable. 
We need to implement policy changes at the federal and state level that 
can provide these necessary identity documents free of charge for 
homeless veterans.
    3.  We have achieved significant systems change in the local system 
of care. We owe a sincere debt of gratitude to the National Alliance to 
End Homelessness (NAEH) and Community Solutions for providing the 
leadership and technical assistance to guide us through this process. 
More is still needed. We need groups such as the National Alliance of 
Homelessness to set standards for professional training, education, and 
experience in the homeless service profession. This will facilitate a 
much higher level of care within the local Continuum of Care's 
throughout the country.
    4.  Employment is a critical to ending and preventing homelessness. 
We must move to the model of ``housing first, employment second'' and 
this must be a very close second priority. Employment is not just about 
income - a job is an important mechanism for connecting to the 
community and to an individual's self-identity. Funding for workforce 
programs which focus on successfully reconnecting homeless individuals 
to the workplace are much needed and would make create significant 
impact.
    5.  Finally, we need leverage the expertise and resources of long 
standing community agencies in our fight against homelessness. Housing 
Authorities are a prime example of this expertise. Housing Authorities 
already have long standing relationships with landlords and extensive 
knowledge of the local rental market. Please consider allowing Housing 
Authorities to use this skill in housing navigation rather than 
building this capacity in agencies that are better suited to addressing 
the clinical needs or emergency shelter needs of homeless veterans.

    In closing, I want to thank you for time and support. I began my 
work with homeless veterans over 13 years ago as an AmeriCorps outreach 
worker stationed at the VA Loma Linda. Never in my wildest dreams did I 
believe that in 13 years I would see an end to homelessness among 
veterans. I think it is only fitting that veterans, even in their time 
of greatest need, led us on this path and showed us what can be 
accomplished when we imagine an end to one of our most challenging 
community issues.

                                 <F-dash>
                   Prepared Statement of Stephen Peck
    Good afternoon. My name is Stephen Peck and I'm the President and 
CEO of U.S.VETS. I'm also a Vietnam veteran. I served with the First 
Marine Division near Danang in '69-`70, and I've been doing this work 
since 1991. U.S.VETS has been in the fight against veterans' 
homelessness since 1993 when we started our first program in Inglewood, 
California. Since then we have grown into the largest veteran-specific 
non-profit housing and service provider in the country, providing 
services at 21 residential sites and 9 service centers in 14 cities 
across 6 states, and the District of Columbia.
    Last year, U.S.VETS, touched the lives of over 17,000 veterans and 
family members; provided housing to more than 4,500; provided 
preventive and rapid rehousing services to 4,600 veterans and family 
members in the community, and placed more than 1,200 veterans into 
living wage employment.
    Locally, U.S.VETS - Inland Empire, our project headquartered at 
March Air Reserve Base, is the largest veteran housing provider in San 
Bernardino and Riverside Counties. This year in these two counties, 
about 2,000 veterans will experience homelessness. But 26,000 veteran 
households are living in poverty, on the brink of homelessness. The 
Inland Empire unemployment rate among veterans 9.5%, about double the 
national average.
    Despite the fact that many of our veterans have legal issues such 
as DUI, Domestic Violence, and Child Support as a direct result of 
dealing with Traumatic Brain Injury, Post-Traumatic Stress, and/or 
Combat Trauma, we were able to help about 90 veterans return to full 
time employment.
    With over two hundred units of housing, from permanent supportive 
to Bridge Housing and Safe Haven, we've been able to help more than 800 
veterans and their family members find housing in 2014-15, and we are 
on track this year to help more than a thousand.
    Our services are comprehensive. To us there is no one answer to 
homelessness, so we co-locate housing, counseling and employment 
assistance at each of our sites, helping to create an environment that 
is responsive to the many challenges veterans face as they transition 
from military to civilian life. Our services include rapid re-housing 
beds, transitional and permanent supportive housing, and support 
services to homeless and at-risk veterans in the community, helping 
each veteran, male or female achieve self-sufficiency.
    We want to prevent veterans from becoming homeless if we can, so 
along with the VA Supportive Services for Veterans Families program, we 
provide preventative mental health counseling to veterans in the 
community through our Outside the Wire program; and employment 
assistance to veterans who are not yet homeless, and are ready to 
return to work through our Career Development Initiative (CDI). Last 
year through this program we helped 450 veterans return to work at an 
average wage of $45,000 a year. Both of these programs are completely 
privately funded.
    Back in 1993, we started with the idea that every veteran should be 
empowered to live at their highest level of independence, which means 
that we want every veteran who is capable of full time employment to 
have the dignity of finding a job. Every site has a career center and 
our workforce teams are critical to the success of our veterans.
    We have six HVRP programs across the country, including one in Los 
Angeles County, which helped us place 618 vets into full time 
employment this past year at an average wage of $12.00 an hour. We've 
developed other state and private workforce funding to make up for the 
limitations of the HVRP program.
    Let me make a few observations if I may:
    First: One of the limitations of operating HVRP is its inability to 
assist those veterans that may be at-risk of homelessness, such as the 
veterans we are serving through our SSVF program. They are not yet 
homeless and therefore do not qualify for HVRP services. We do not 
always have other workforce funding to help these veterans but if we 
could help them prior to the on-set of homelessness we may be able to 
prevent them from losing their housing.
    This is where our Career Development Initiative comes into play. 
Fully one-third of our job placements last year were made through the 
CDI program because of lack of sufficient and flexible funding from 
DOL.
    Nationally, the HVRP funding has been flat lined for the past three 
years, while increasing numbers of vets return from deployment, all 
them needing jobs. The program is authorized at $50M, but it has never 
reached this funding level and is stuck at $38M, leaving thousands of 
veterans without the employment assistance they need. Currently, there 
is no HVRP funding in Riverside County.
    Secondly: The ultimate goal of the HVRP program is to place 
veterans into long lasting employment. If there were additional funds 
available to expand follow-up services to include more than just 
counseling and placement, services such as additional training if 
necessary, grantees could be more supportive to those veterans, help 
them secure higher paying jobs, and ensure that they keep their jobs.
    And finally: The VA and HUD emphasis on quickly moving vets out of 
service intensive transitional housing, into permanent housing does 
have some unintended consequences. Once they are in permanent housing, 
they are ineligible for HVRP. Making them eligible for 90 days after 
they move would alleviate this problem. But the ready availability of 
HUD-VASH vouchers, marketed heavily by the VA and others in the 
community, can create a disincentive for some veterans to seek 
employment. Crawling out of homelessness and building the skills to 
become self-sufficient is difficult. We and other providers, have had 
many veterans who have been in our workforce programs, readying 
themselves for employment, who suddenly drop out of the job search 
because they heard of the possibility of receiving a VASH voucher. What 
they say to us is ``I don't want to endanger my possibility of getting 
my voucher by getting a job. The income may disqualify me.'' That is a 
terrible disservice to that veteran - trading a productive career for a 
lifetime of dependence.
    We have more resources than ever before to help veterans who are 
homeless, and it is up to all of us to use them wisely, empowering the 
veterans we are pledged to serve, and making sure we are providing them 
the skills that will help them, as one of our vets said, ``to bring 
back the man who once wore the military uniform with pride and honor.''

                                 <F-dash>
                    Prepared Statement of Son Nguyen
    Chairman Wenstrup, Ranking Member Takano and members of the 
Subcommittee:
    Thank you for inviting the Veterans Association of Real Estate 
Professionals (VAREP) to submit our testimony on ``Finding Solutions 
for Veteran Homelessness in Southern California''. With 24 plus 
chapters and growing across the country, we are pleased to share the 
perspective of those most directly impacted by the subject this 
committee addresses.
    Established in 2011, VAREP has quickly grown to be a voice for the 
interests of veterans in financial-literacy, homeownership and VA loan 
education and counselling; additionally, we have become the educational 
resource to the real estate, lending, and housing professionals. We 
teach them on how to better serve our veterans achieve the American 
Dream of homeownership. Our Capitol Hill visits have advocated for 
multi-agency collaboration including specific legislative and 
administrative changes in removing barriers to veteran homeownership.

National Outreach Results:

    <bullet>  1,500 veterans were educated about the importance of good 
credit, benefits of Homeownership, the home buying process, the VA loan 
benefit, down payment assistance programs, HUD VASH, and SSVF programs 
through our ``Veterans Housing Summits (VHS)'' across the country.
    <bullet>  As a direct result of these Veterans Housing Summits, 500 
veteran families realized homeownership and counting.
    <bullet>  5,000 real estate professionals and lenders educated 
about the VA loan and how to work with the military and veteran 
communities.
    <bullet>  1,500 veteran families have been help by VAREP local 
chapters through toy, blanket, and food drives. VAREP has paid for 
utilities, rent, and mortgage payments for veteran families who 
experience a temporary hardship through our VAREP Cares program.
    <bullet>  10 Mortgage-Free Home Donations across the United States 
to qualified veterans through our ``House-A-Vet - Homes for Heroes'' 
program
    <bullet>  $40,000 in a form of grants were given to veteran 
families for down-payment, closing costs, and adaptive housing 
assistance.
    <bullet>  70 homes remodeled and sold to low-to-moderate (LMI) 
income veterans families through our ``House-A-Vet - Veteran First'' 
resale program.

Southern California Outreach Results:

    <bullet>  200 veterans attended Veterans Housing Summits in 
Riverside, San Bernardino, and Los Angeles Counties.
    <bullet>  As a direct result of these Veterans Housing Summits, 50 
Southern California veteran families realized homeownership.
    <bullet>  500 plus veteran families have been help by VAREP local 
chapters through toy, blanket, and food drives for the holiday season.

    In this testimony, we will address homelessness and low-income 
veterans as relates to transitionary housing, overcoming barriers to 
homeownership and transitioning into a sustainable life in Southern 
California. We look forward to working with the Department of Veterans 
Affairs (VA) and this committee on these issues.

Overview of California Veterans and Homeless Population

    California has approximately 1.9 million veterans. Of these, about 
185,000 (or 9.7 percent are women) Almost one million are currently 
over the age of 60 (52.3 percent). Most live in Southern California 
counties, and are heavily clustered in Los Angeles (281,961 in 2015), 
San Diego (221,076 in 2015), Orange County (112,449 in 2015), San 
Bernardino (108,497), and Riverside (128,767 in 2015).
    California expects to receive an additional 30,000 discharged 
members of the armed services each year for the next several years - 
more than any other state. Nearly 15,000 California veterans experience 
homelessness nightly, representing 26 percent of the nation's homeless 
veterans.
    Compared to the general adult population, male veterans are less 
likely to progress from stability into homelessness. But male veterans 
living in poverty are about 1.2 time more likely to progress to 
homelessness when compared to civilians living in poverty. Women 
veterans, however, are twice as likely as other adults to move into 
homelessness, and women veterans in poverty are 2.7 times as likely to 
move into homelessness as other adults living in poverty. For all 
veterans, youth is now associated with a higher risk of moving into 
homelessness. For 18-30 year old veterans living in poverty, when 
compared to nonveteran adults living in poverty, veterans are 3.4 times 
as likely to become homeless.
    This young cohort is made up of veterans who have served in both 
Operation Iraqi Freedom and Operation Enduring Freedom (OIF/OEF) and 
has a higher proportion of women veterans that older cohorts do.
    Women in their 30s to 50s experienced the greatest problems with 
housing destabilization and homelessness. However, we also found that 
women serving in the most recent conflict experience problems 
maintaining stable housing once they become a veteran.

Homeless and Marginal Low-income Veteran Transitional Housing

    Southern California has made great strides to ending veteran 
homelessness through a collaboration of local, state, and federal 
programs including the HUD VASH and SSVF.
    The HUD VASH is a great program, however, the definition of 
homeless only covers veterans who are actually on the streets or 
housing shelters. A couch-surfing, low-income veteran cannot afford a 
permanent dwelling is essentially homeless, currently, this veteran 
would not qualify for the HUD VASH Voucher program. The propensity for 
this type of veteran to be street homeless is inevitable. HUD VASH 
should re-consider and expand its definition of homeless to be more 
inclusive of the low-income veteran.
    SSVF is another great program, however, the challenge is that a lot 
veterans are unaware that this program exists. The SSVF Continuum of 
Care grant recipients need to do a better job of outreach to educate 
veterans within the communities they serve.
    The transitional period is a critical time in a veteran's life. 
They are brought off the street and into transitional housing to 
receive treatment for a variety of physiological and physical ailments. 
They are also encouraged to apply for entitlement benefits such as 
disability and find suitable employment for sustainability. However, 
financial fitness education and housing counseling needs are not being 
addressed. Financial literacy education and housing counseling services 
needs to be part of the supportive services provided and overseen by 
case management as a requirement of daily living activities.

Studies: Lack of Financial Literacy May Trigger Veteran Homelessness

    Post-traumatic stress disorder (PTSD), traumatic brain injury 
(TBI), depression, bipolar disorder, alcohol and drug abuse, younger 
age, and contact with the criminal justice system have each been 
identified as risk factors for homelessness among veterans. However, an 
overlooked contributor to veterans' homelessness is not achieving 
financial stability after military service. Financial factors, 
including lack of stable employment, inability to budget and make ends 
meet, limited financial knowledge, poor judgment in making financial 
decisions, and lack of material security, can exist independently of 
mental health diagnoses and the other risk factors mentioned according 
to a report in the American Journal of Public Health in 2013.
    The study found that military members in general are less familiar 
with household budgets, more likely to be targets for predatory lenders 
and ``may not have the opportunity to learn the skills necessary for 
being financially independent and managing money.''
    Researchers from the University of North Carolina and Duke 
University said the study of 1,000-plus veterans from the Iraq and 
Afghanistan era found nearly one-third had gone over their credit 
limit, written a bad check or been contacted by a collection agency. 
About 5 percent of those surveyed spent some time homeless.
    A 2014 University of Southern California Los Angeles County Veteran 
Study showed:

    <bullet>  30% of veterans reported financial troubles, many of 
which began during military service.

    A 2014 Blue Star Families Military Family Lifestyle Survey 
revealed:

    <bullet>  65% surveyed experienced stress related to their family's 
current financial condition.
    <bullet>  84% agreed that greater focus should be placed on 
preventive financial education as a whole.

Financial Fitness Education Solution

    A ``Financial Literacy'' education and coaching program needs to be 
established as a benefit under the new GI Bill so veterans can apply, 
participate, and graduate financially fit ensuring sustainability.

The program can be implemented in all phases including active-duty, 
    transitioning, and reintegration:

    <bullet>  Active-Duty--Start early and make a financial literacy 
curriculum mandatory for all service members to be completed within 60 
days after reporting to their duty station. Follow up with peer-to-peer 
financial fitness coaching to include annual credit review and savings 
plan. Starting early in the service member's career creates good money 
habits and the annual credit reviews will enable sufficient time, if 
needed, to restore financial health prior to military separation.
    <bullet>  Transitioning--During TAP/Transition GPS, have trained 
financial counselor conduct final detailed financial analyses of 
separating service members' financial health.
    <bullet>  Reintegration and Sustainable Life--The Veterans 
Administration (VA) in partnership with veteran housing nonprofits to 
provide continued financial literacy education, support, and coaching.

Barriers to Homeownership
    Mental Disorders, PTSD, TBI, substance abuse, unemployment, lack of 
income, poor money management, bad credit, are all barriers to 
homeownership. However the biggest barrier to homeownership is lack of 
home buyer outreach, education, and counseling. This lack of these 
services have caused confusion, frustration, and in some cases housing 
discrimination.

    A 2015 Veterans Association of Real Estate Professionals (VAREP) 
Veteran Housing Survey Revealed:

    <bullet>  95% said they did not receive housing training and 
counseling while in service.
    <bullet>  90% said they did not receive VA Loan benefit training 
during service, transitioning out, or post separation.
    <bullet>  45% said they did not ever think they could own a home.
    <bullet>  65% said they did not know where to go and get help with 
their credit.
    <bullet>  70% said they could not find affordable housing on a 
limited income.
    <bullet>  90% said VAREP was the first group that actually focused 
on educating veterans on homeownership.
    <bullet>  95% said they wanted follow up and home buying counseling 
services.
    <bullet>  50% said they had a foreclosure or short sale and thought 
they could not buy again.
    <bullet>  70% said they had a hard time finding a realtor or lender 
to work with them if they were using the VA loan.

Home Buyer Pre-purchase and Post-purchase Housing Education and 
    Counseling Solution

    The Department of Housing and Urban Development (HUD) has proven 
that providing home buyer pre-purchase, post-purchase, and default 
housing education and counseling through NeighborWorks America's 
network of counseling agencies works.

HUD's data shows:

    <bullet>  Pre-purchase homeownership counseling had positive long-
term effects on credit score, debit levels, and delinquencies on debt.
    <bullet>  Counseling clients are one-third less likely to become 
90+ days delinquent in the two years since obtaining their loan.
    <bullet>  Telephone quarterly free financial coaching for one year 
post-purchase found an 11.1 reduction in mortgage default rates for 
first-time home buyers with subprime credit histories (credit scores 
below 680).

    HUD-approved housing counseling agencies are ill equipped to 
provide veteran housing education and counseling services because the 
VA loan and veteran demographic is not in their wheelhouse. The 
responsibility of these services rests with the VA.
    Despite HUD's lack of catering to the veterans, the homeownership 
education and counseling model works. A veteran housing education and 
counseling program should be established under the GI Bill as part of 
the VA loan program. This seems to be a natural fit.

Fair Housing Law Veteran Inclusion

    Veterans are members of a protected class. Laws have been passed to 
increase hiring of veterans, increase contracting opportunities for 
veteran-owned businesses, suspend civil proceedings against service 
members while deployed, provide foreclosure-prevention help for veteran 
homeowners, and penalize companies who prey on service members through 
high-interest loans and investments scams. It is long overdue to make 
veterans a protected class as part of the Fair Housing Act.
    Allow Community Reinvestment Act (CRA) credit for financial 
institutions who purposefully reach out to the Low-to-moderate (LMI) 
veteran community to give them the credit access they need.

Conclusion

    The benefits of this proposal are clear: financial literacy 
education and homeownership education with counseling services are 
proactive and preventive measures to ending virtual homelessness in 
Southern California while enabling reintegration sustainability. A 
pilot programs should be established within Southern California by the 
VA to develop and implement these services. Once success is proven, 
these programs can be scalable for the entire United States. It is our 
hope that we can work with the VA to bring this concept from 
possibility to reality.
    To properly demonstrate the veteran requests that VAREP receives on 
a daily basis, please see exhibit 1. We have done the best that we can, 
however, there no grants that support us in our endeavor, thus almost 
1,000 affordable housing options, financial literacy, and housing 
counseling requests are backed-logged waiting for processing.

    Exhibit 1. Affordable Housing, Financial Literacy, and 
Homeownership Counseling Request Samples.
    We thank the Chairman, Ranking Member, and the Subcommittee Members 
for your time, attention, and devotion to the cause of veterans. We 
welcome your feedback and questions, and we look forward to continuing 
to work with this subcommittee, the House Committee on Veterans' 
Affairs, and the entire Congress to ensure the success and empowerment 
of all generations of veterans in the areas of financial and 
homeownership sustainability.

Information Required by Rule XI2(g)(4) of the House of Representatives

    Pursuant to Rule XI2(g)(4) of the House of Representatives, VAREP 
has not received any federal grants in Fiscal Year 2015, nor has it 
received any federal grants in the two previous Fiscal Years.

Son Nguyen,

Founder and President

    Son Nguyen is the Founder and President of the Veterans Association 
of Real Estate Professionals (VAREP). Mr. Nguyen creates, implements, 
and overseas the programs within VAREP including working with 
government agencies and policy makers to create and reform veteran 
housing policy to remove barriers to homeownership.
    He is frequently called upon as a subject matter expert by 
government agencies, the real estate industry, the lending industry, 
and real estate trade organizations to provide consultation on a 
variety of veteran housing issues.
    Mr. Nguyen has 19 plus years of experience in real estate, public 
speaking, supplier diversity, curriculum development, and non-profit 
management. His record speaks of innovation and leadership at the 
highest level.
    Mr. Nguyen established VAREP as a housing non-profit for vets, by 
vets. He believes VAREP's proactive stance--providing financial-
literacy education and advocating homeownership--may not end the 
epidemic of homelessness among the veteran community, but can prevent 
it from happening in the future, one veteran at a time.
    Mr. Nguyen entered the Navy in 1996 and served as a Radioman on the 
USS Vincennes (GC-49) and USS Constellation (CV-64). A proud service-
connected disabled veteran, Mr. Nguyen holds a Bachelor's degree in 
Public Relations from of the University of Florida and a Master's in 
Organizational Management. He currently resides in Corona, CA with his 
wife, son, and Labrador.

Exhibit 1. Affordable Housing, Financial Literacy, and Homeownership 
    Counseling Request Samples.

Credit Counseling Requests

    1. I want to learn more about fixing my credit, to apply to home 
loan. I am a war veteran, I did 3 years active and one deployment. I am 
currently in the process of finishing my last year of my eight year 
contract.
    -J. Jacquez

    2. Hello. My husband and I had a short sale a few years ago and it 
shows up on our credit as a foreclosure. Since then we have been moved 
from house to house (We have moved 10 times since 2007) and we are 
getting ready to move into a temporary house this weekend AGAIN! My 
husband and I both served in Iraq (Me-2 years, my husband 1 year). I am 
a 50% disabled veteran and was hoping you could help us with some 
credit repair advice, or any assistance that is possible. We just want 
our own stable house to raise our family in.
    -C. Morris

    3. My husband and I are both veterans. I am 50% disabled and we are 
working on his. We need some serious help in credit repair and 
counseling as we wish to purchase a home for our Golden years. We are 
putting into place this year a 2 year plan, we would appreciate any 
help.
    -A. Mallette-Robinson

Home Buyer Counseling Requests

    4. Looking into using VA home loan to get first home questionable 
credit because of bad divorce.
    -A. Garcia

    5. I was medically retired from the Army in late 2013, and 
purchased a house around June of 2013. I filed for divorce in 2014, and 
bankruptcy shortly afterward. I wasn't able to make mortgage payments/
utilities and keep the house in order while being only supported by my 
VA disability compensation after my ex-wife left. The house was 
included in the the Ch 7 that was discharged Feb 2015. I understand 
that I am not allowed to be on any mortgage application for an FHA loan 
for at least 2 years following discharge. My questions involve the 
future, what is the status of another VA homeland guaranty or FHA 
application?
    -R. Smith

    6. Sick of throwing away money to rent! I am a disabled combat vet 
of the Iraq war. Served with the 101st airborne division as a combat 
infantryman. Am diagnosed with severe PTSD. Would be honored to receive 
credit counselling and home buying classes.
    -J. Sokel

    7. My wife and I have poor credit and our working towards improving 
our credit and paying off our debt. My wife works full time at the San 
Diego Zoo, and I recently finished school and am a Pharmacy Technician. 
Our monthly income is 3195. I didn't want to use my VA home loan until 
our credit was better and obviously until both of us were where we 
needed to be career wise. I have worked my entire adult life in 
healthcare and aviation and have no doubt that I will be employed soon. 
With rent being so high here in San Diego I wanted to see what my 
options were as far as purchasing our first home. Condo or house.
    -R. Alvarez

    8. I would like to buy my own home in 2017. I have bad credit and 
need help saving a down payment or closing costs.
    -N. Cook

    9. Getting ready to buy a home and need some home buyer counseling.
    -M. Rutledge

    10. Looking to own our own home. Need to stop paying the insane 
amount of rent in the apartment we are in currently, move into 
something more affordable and start to repair our debt and credit. We 
want a house that we can fix up, something we can flip and call our 
own. our current situation is that we pay more for our apartment than 
we would a mortgage for have that cost, allowing us to live more 
comfortably...right now we can't, we struggle to pay everything with 
such a high rent payment. Please help in any way that you can.
    -H. Atkinson

Renting and Relocation Requests

    11. I'm a 14 year Army veteran with multiple disabilities, still 
awaiting approval of my claim from the VA. I currently reside in 
Section 8 Housing in Riverside, CA but will likely be on the street 
shortly. I was working as an electrician's apprentice until I was laid 
off in April of this year, and have since been living off of 
unemployment benefits while I have been taking care of my health, 
including surgery on my left wrist, multiple epidural injections in my 
back, etc. My landlord has presented me with a three-day notice and 
will be forwarding me to her eviction attorney for rents that she 
claims I have not paid. I can prove that I have in fact paid, but I do 
not have every receipt from every month. My interaction with my 
landlord began very informally, and I did not think to request receipts 
from her or her son (who also collected rent) every month. 
Unfortunately they are now claiming that I haven't paid. Either way, 
because I don't have all of the receipts I stand in very real danger of 
losing my section 8 status and being homeless with my wife and two 
daughters. I don't know where to turn, SSVF will not help because I am 
in Section 8, and none of the other local charities have funding for 
rental assistance at this time. I need help finding affordable housing, 
looking to the future and eventual home ownership.
    -J. Pelletier

    12. I got out of the army in March of 2013 and moved to New Mexico 
where my dad was stationed. I just so happened to meet my now wife 
there while going to school at Eastern New Mexico university. She had 
two kids already from a previous abusive marriage and now she and I 
have a son together. We won custody of both of my step son and daughter 
and moved to Oregon to make a better future for ourselves with better 
opportunities for my kids and wife. Our living situation is where our 
problem lies. We currently live in a 25x25 room at my parents 
consisting of my wife and I, our 7, 4, and 1 years old kids and our 
dog. We don't have a shower that works in our room so we have to go 
into my parents house to use theirs. We cannot afford a house of our 
own because I'm the only one working. My wife would work but we cannot 
afford daycare for our kids. I'm going to school full time and working 
as well to be able to get a house for my family. With our bills, the 
money I make from school and work covers them and leavesee us with a 
little bit of money for the necessity things like gas and what not.
    -R. Peel

    13. I was honorably released from service at on December 19, 2014. 
I tried to attend school but was forced to drop out due to missing too 
many days because of my PTSD and depression. I was unemployed until I 
found a job at the county human services in June 2015 where I am still 
currently employed. During my 6 months of unemployment, I missed paying 
my rent a few times and still owe that back rent to my landlord. I have 
been struggling to get caught up on past bills as well as trying to 
stay current. However, I received a vacate letter from my landlord 
stating that if I do not pay the arrears then me and my two kids must 
vacate the house which will leave us homeless. I don't know what else 
to do, please help.
    -L. Bell

    14. Worried about my transition from military. Credit score is very 
low, hard to find anyone to rent to me. Finishing twenty years of 
active naval service. Really need help in finding a place to live when 
out of military, no family here in San Diego.
    -D. Pearson

    15. Hello, I am a single 32 male USMC Veteran. I just finished my 
goals of 2015 which was connecting with family and friends. I am ready 
for myself. I will be re-locating as P&T TDIU veteran. Due to my low 
credit, and low savings I will have to wait until February to think 
about continuing my goal to be independent and have a place to call 
home. I am looking to create a foundation and then excel from this 
foundation. First I need to take care of personal health goals and 
mindset. If you have any advice or opportunities to rent in the San 
Diego area, or that works with veterans please advise. Due to my income 
from the VA I do not qualify for some assistance programs like SSVF, I 
declined earlier this year to fix some personal relationships and take 
care that. I would like to get a head start in 2016, as I look to build 
my foundation for the future.
    -C. Forero

VA Loan Specialist Requests

    16. I am a 61 year old veteran. MY 34 year old son is also a 
veteran, serving in both Afghanistan and Iraq. In the past, we have 
both had problems with homelessness due to economics more than 
anything. In 2014, I lost my home to foreclosure. I was 59 at the time, 
and had not been able to find a job that would support me. I now live 
in a trailer that should be condemned, (leaking roof, rotting floor, 
and not a functioning kitchen, to name a few of the problems). At least 
I am financially stable with a good job that I just started. My son and 
his family were evicted from his apartment in Bradenton in August. The 
company he worked for went out of business. He and his wife lived with 
me for a few months and he got a good job here in Clearwater. The 55+ 
MHP forced him to move out, so they moved to a 1 bedroom apartment. The 
rent takes nearly half his monthly income. Their three children are 
currently living in Spring Hill with their other grandparents. His wife 
has almost no job experience and has health issues, so she has been 
unable to contribute in the past. She is currently seeking employment, 
though. My son and I want to pool our incomes and purchase a 3 or 4 
bedroom home that has an additional 1 bedroom apartment where I can 
live. This would be our ideal situation, but with a foreclosure and 
eviction, neither of us has the credit rating that would secure a 
mortgage. All we need is an understanding lender.
    -A. Younger

    17. I am an honorably discharged vet of the navy. I only did 4 
years so I am not retired. I do know I am entitled to a VA loan. I am 
trying to buy a house. Basically though my credit score is so low no 
one will touch me and I don't have a lot of money at all to put down 
for a house. My monthly payments couldn't be over $900.00 my credit 
score is bouncing between 450 I think and 515. I don't really have time 
to go see anyone (track down VA loan Specialists) I can't use a 
cosigner either. So I need to know what are my options are there any 
programs that can help me. I am beginning to lose hope. I don't even 
have the money to pay off my debts everything I make is gone the same 
day can't save. I need help.
    -D. Crump

    18. We own our home but want to refinance it and take out a VA 
loan. We fell into some hard times beginning in 2005. I developed 
health problems that led to the loss of employment. Fortunately we had 
taken out a mortgage insurance plan that prevented us from losing our 
home when this happened so we didn't have to make payments. But that 
meant we accumulated interest and no payments were being made on the 
principal of our mortgage. The mortgage lender would not help us at 
all. On top of this there were many foreclosures sold on the market in 
our area that brought the value of our home down and we were upside 
down on our mortgage. We tried to refinance at the current lower 
interest rates because our current rate is 7.18. We could not refinance 
but were unable to since our home appraised lower than what we owed due 
to all the factors mentioned. We had no money to bring to the table to 
cover the shortage.
    During this period I was approved for disability due to my health 
issues and I'm rated by the VA at 80% combined disability and 
considered unemployable. Fortunately, I do have an income and we were 
able to keep our home during this terrible time.
    Last year we got in touch with a mortgage lender in the area who 
works with VA loans thinking that the value of our home may have come 
back up enough for us to have enough to do a refinance. The appraiser 
who was sent out did not do us justice I believe (we had a real estate 
agent do a market estimate that was much higher). Again, our home fell 
short of what was needed.
    Sadly two years ago I lost my father. He left a sizable estate for 
his children for which I am thankful. Unfortunately it has been tied up 
in litigation for over a year but will now be disbursed, hopefully, 
before the end of the year. I just want to know what might be available 
for us. Our mortgage is not eligible for HAARP since it was owned by 
the bank that we took it out with which is TCF or Twin Cities Federal 
Bank.
    -N. Nygaard

    19. I would like to speak with someone about arranging for a V.A. 
home loan. We do have a number of questions. Our current situation is 
that for the past 12 years, we have been renting a large loft in 
Downtown L.A., which we use for both business and home. It's been a 
perfect place for us, but the rent is starting to get so high, $3100 
per month, that we really want to start looking for a home. We have 
never found a suitable home, especially in Los Angeles that would 
provide what we have now. We are willing to consider any area within 
Southern California.
    This would be a first time home purchase. My ex-wife, Bettie Miner, 
and I have been living together now for the past 12 years. We were 
divorced in 1992, but worked things out. We just never re-married.
    We are self-employed and do quite well ($110,000+ annually), but as 
self-employment allows significant write-offs, our tax returns look 
like we're low-income. So, we've never really tried to buy a home 
before. We would also like to take advantage of the ``no down payment'' 
option. If you call, you are welcomed to speak with Bettie about any 
details or arrangements.

    -R. Galling

Foreclosure Prevention Requests

    20. I'm currently in a VA mental health facility for PTSD/MST and 
addiction recovery. My home situation is somewhat complicated. I'm 
divorced, was awarded the family home. I need advice on this. Best way 
to contact me is via email due to rules restricting cellphones.
    -D. Tumblin

                                 <F-dash>
                   Prepared Statement of Jose Rivera
    Good Afternoon,

    I would like to share my experiences as a beneficiary of the HUD 
VASH program. The program has been life changing. The HUD VASH program 
has empowered me to actualize my educational and professional plans. 
The staff at the Veterans Affairs in Loma Linda, especially Miss. 
Jennifer Sircar, played an important role by mentoring and supporting 
my educational and professional goals. Miss. Sircar was a great liaison 
and spokesperson by referring me to the US Vets for further assistance 
in accessing resources. Furthermore, I was referred to the Warehouse 
for Heroes, which furnished my apartment completely. The program has 
been full of great opportunities, I am indebted to the Veterans Affairs 
and Housing and Urban Development. The services provided by both HUD 
and the VA have prepared me to transition into a new phase in my life. 
I now am on my way to realizing a lifelong goal of attaining my 
Bachelor's degree in Anthropology, this summer I will graduate from the 
University of California Riverside. I have been able to utilize the 
Post 9/11 GI Bill Benefits, which has contributed to the improvement of 
quality of life for my daughter and me. The GI Bill has been the 
platform which has allowed me to pursue my education. I have benefited 
from the book stipend, from the tuition fee payment, and the monthly 
living allotment. I have utilized the resources made available and they 
have truly changed my life. I hope to be a civil servant for this great 
nation.

    Respectfully

    Jose Rivera

                                 <F-dash>
                       Statements For The Record

                              MIKE MICHAUD
                              INTRODUCTION
    Chairman Wenstrup, Ranking Member Takano, and distinguished Members 
of the Subcommittee, thank you for the opportunity to provide a 
statement for today's hearing on veterans' homelessness. I commend you 
all for your tireless efforts to ensure that America fulfills its 
obligations to our current service members, veterans, and their 
families. The Department of Labor (DOL, or The Department) also works 
hard every day to ensure all veterans are prepared to meet their 
employment objectives.
    Secretary Perez and I know that one of the most important ways to 
prevent and end veteran homelessness is through a good job. However, 
employment is not the only factor in overcoming homelessness among 
veterans. Long-term stability requires a coordinated level of care 
between many federal partners, including the Department of Veterans 
Affairs (VA) and the Department of Housing and Urban Development (HUD), 
state and local organizations, non-profits, and the private sector to 
ensure veterans are successful in overcoming the myriad of barriers 
created by homelessness. To that end, the Department is committed to 
working on the Administration's aggressive goal of ending homelessness 
among veterans, as guided by Opening Doors: The Federal Strategic Plan 
to Prevent and End Homelessness. In leading this effort, the U.S. 
Interagency Council on Homelessness (USICH) has generated powerful 
national partnerships at every level to work toward ending homelessness 
across the nation. While the goal of ending veterans' homelessness in 
2015 was not reached nationally, it was reached in many communities, 
cities, and even States. The best practices from these successes will 
guide efforts in the rest of the country and the momentum generated by 
the President's focus will propel all of us towards the national goal.
    Through these interagency efforts and many others, the 
Administration has achieved historic progress. According to the HUD's 
2015 Annual Homeless Assessment Report to Congress, homelessness among 
veterans has declined by 36 percent from January 2010 to January 2015. 
Yet, on a single night in January 2014, there were still 47,725 
homeless veterans. That is why the Department looks forward to working 
with the Subcommittee in providing these brave men and women who served 
our nation with the employment support, assistance and opportunities 
they deserve to succeed in the civilian workforce.
    We also note that our partnerships throughout DOL extend Veterans 
Employment and Training Service's (VETS') ability to achieve its 
mission, and bring all of DOL resources to bear for America's veterans, 
separating service members, and their families. VETS' mission is 
focused on four key areas: (1) preparing veterans for meaningful 
careers; (2) providing them with employment resources and expertise; 
(3) protecting their employment rights; and, (4) promoting the 
employment of veterans and related training opportunities to employers 
across the country.
    One important component of these services is the Homeless Veterans' 
Reintegration Program (HVRP), which VETS administers to help homeless 
veterans reenter the labor force. The agency provides grants to state 
and local Workforce Development Boards, tribal governments and 
organizations, public agencies, for-profit/commercial entities, and 
non-profit organizations to administer the services necessary to assist 
in reintegrating homeless veterans into meaningful employment and to 
stimulate the development of effective service delivery systems that 
will address the complex problems facing homeless veterans. The HVRP 
program succeeds not only because of the hard work and local 
connections of our grantees, but also because of the collaborative 
efforts of our government partners at the Federal and State levels. 
These efforts help ensure that homeless veterans receive a robust, 
comprehensive network of support.
   HVRP PROGRAM PERFORMANCE & ADDITIONAL SERVICES TO ASSIST HOMELESS 
                                VETERANS
    HVRP's client-centered, hands-on approach has helped place 
thousands of previously-homeless veterans, some of whom were 
chronically homeless, on a path to self-sufficiency. Historically, the 
Department also has funded two additional types of grants designed to 
address difficult-to-serve subpopulations of homeless veterans: the 
Homeless Female Veterans and Veterans with Families Program (HFVVWF) 
and the Incarcerated Veterans' Transition Program (IVTP). In addition, 
the Department supports ``Stand Down'' events (described below) and 
technical assistance grants.
    HVRP grantees have helped many homeless veterans, including Marcus 
Vernardo. Mr. Vernardo was a U.S. Army National Guard Veteran who 
served as a Special Electronics Device Specialist. He left The National 
Guard with an Honorable Discharge and began attending the United 
Education Institute for the Computer Technician Certification Program. 
However, his life circumstances changed and Mr. Vernardo found himself 
homeless, looking for any type of employment to make ends meet.
    On December 1, 2015, Mr. Vernardo attended a recruiting event at 
the American Job Center (AJC) of Rancho Cucamonga, CA. There, he met 
Mr. Carl Reed, a Disabled Veteran Outreach Program (DVOP) specialist, 
and was assigned to the Veterans' Intensive Program (VIP). The DVOP 
started an Employment Development Plan for Mr. Vernado and reviewed his 
impressive resume, noting his extensive experience with Information 
Technology and numerous Information Technology certifications.
    Mr. Reed spoke with his colleague, Mr. Darren Cooke, a Workforce 
Development Specialist for the County of San Bernardino, and asked him 
if he knew of any opportunities for a communication specialist. Mr. 
Cook forwarded Mr. Vernardo's resume. Later that day, Mr. Vernardo 
received a call from Veterans Communication Company for an interview 
for the following day. Mr. Vernardo was offered, and accepted, a 
position at the Veterans Communication Company as a Communication 
Specialist. He started on December 7, 2015, at $35.00 an hour.
    With its $38 million HVRP appropriation for PY 2014, DOL awarded 37 
new grants, 119 option-year grant extensions, and 86 Stand Down grants. 
This included 18 Homeless Female Veterans and Veterans with families 
(HFVVWF) grants. The Incarcerated Veterans' Transition Program (IVTP) 
was not authorized in PY 2014 but was reauthorized for PY 2015.
    DOL received level funding of $38 million for the PY 2015 cycle, 
awarding 38 new HVRP grants and 122 option year HVRP grants, including 
12 HFVVWF and 8 IVTP grants. These grantees are expected to provide 
services to approximately 17,000 homeless veterans, with an estimated 
placement rate of over 60 percent, at an estimated cost per participant 
of $2,200. The Department also awarded two technical assistance 
Cooperative Agreements to support grantees and disseminate best 
practices.
    HVRP grant recipients are measured against four performance 
outcomes outlined in our policy guidance: (1) number of enrollments; 
(2) number of participants placed in unsubsidized employment; (3) 
placement rate; and (4) cost per placement. DOL staff members work 
closely with grantees to help them achieve their goals for all four 
performance outcomes. HVRP grant recipients also report on the average 
earnings for individuals who retain employment.

                               Table 1. HVRP Participant Statistics, PYs 2013-2014
----------------------------------------------------------------------------------------------------------------
       Performance Outcomes                 PY 2013*                  PY 2014**            PY 2015 Targets***
----------------------------------------------------------------------------------------------------------------
Participants Enrolled                                16,133                    17,039                    17,000
----------------------------------------------------------------------------------------------------------------
Placed Into Employment                               10,226                    11,699                    11,050
----------------------------------------------------------------------------------------------------------------
Placement Rate                                        63.4%                     68.6%                       65%
----------------------------------------------------------------------------------------------------------------
Average Cost Per Participant                         $1,903                    $1,936                    $2,200
----------------------------------------------------------------------------------------------------------------
Average Hourly Wage at Placement                     $11.51                    $11.84                    $12.00
----------------------------------------------------------------------------------------------------------------
* As reported in the FY 2014 VETS Annual Report to Congress.
** As reported in the Veterans' Employment and Training Service Operations and Program Activity Report (VOPAR)
  System, HVRP Program Status Report, including HFVVWF but not ITVP data.
*** As reported in the FY 2016 President's Budget


    The Homeless Female Veterans and Veterans with Families Program
    VETS awarded 12 HFVVWF grants, totaling $2.1 million, in FY 2015. 
HFVVWF grants have been competitive grants that specifically target the 
subpopulation of homeless female veterans and veterans with children. 
As noted in HUD's 2015 Annual Homeless Assessment Report to Congress, 
homeless women veterans accounted for nine percent of the overall 
homeless veteran population. The program provides direct services 
through a case management approach that leverages federal, state, and 
local resources. Eligible veterans and their families are connected 
with appropriate employment and life skills support to ensure a 
successful integration into the workforce.
          The Incarcerated Veterans' Transition Program Grants
    VETS awarded eight IVTP grants, totaling $1.8 million, in FY 2015; 
these grants will continue through March 31, 2017. IVTP grants are 
designed to support incarcerated veterans who are at risk of 
homelessness by providing referral and career counseling services, job 
training, placement assistance and other services. Eligible IVTP 
participants include veterans who are incarcerated and are within 18 
months of release, or were released less than six months from a 
correctional institution or facility. For PY 2012, IVTP grantees 
enrolled 1,408 participants and had a placement rate of 63.4 percent 
with an average hourly wage of $10.69 at placement.
               Stand Down and Technical Assistance Grants
    Through HVRP, the Department also supports ``Stand Down'' events. 
These events, typically held over one to three days in local 
communities, provide an array of social services to homeless veterans. 
Stand Down organizers partner with federal and state agencies, local 
businesses and social services providers to offer critical services, 
including temporary shelter, meals, clothing, hygiene care, medical 
examinations, immunizations, state identification cards, veteran 
benefit counseling, training program information, employment services, 
and referral to other supportive services.
    The HVRP grant also provides funding to the National Veterans 
Technical Assistance Center (NVTAC). The NVTAC provides a broad range 
of technical assistance on veterans' homelessness programs and grant 
applications to existing and potential HVRP, HFVVWF, and Stand Down 
grantees; interested employers; Veterans Service Organizations; and 
federal, state, and local agency partners. Currently, VETS' two NVTAC 
grantees are the National Coalition for Homeless Veterans and Advocates 
for Human Potential.
                 Jobs for Veterans State Grants (JVSG)
    DOL awards Jobs for Veterans State grants (JVSG) as a formula grant 
to each state and territory to support two types of staff positions in 
the AJC network: Disabled Veterans' Outreach Program (DVOP) specialists 
and Local Veterans' Employment Representatives (LVER). DVOP and LVER 
staff support HVRP grantees by helping grantees achieve entered 
employment goals through case management, direct employer contact, job 
development, and follow-up services.
    DVOP specialists provide intensive services targeted at meeting the 
employment needs of disabled veterans and other veterans with 
significant barriers to employment, including homeless veterans. In 
addition, DVOP specialists often refer veterans who experience 
homelessness to other AJC services, such as the Workforce Innovation 
and Opportunity Act (WIOA) Adult and Dislocated Workers services and 
training. AJCs provided JVSG-funded services to 17,734 homeless 
veterans in PY 2013. LVER staff conduct outreach to employers and 
engage in advocacy efforts with local businesses to increase employment 
opportunities for veterans, and encourage the hiring of veterans, 
including homeless veterans.
    The transition from the Workforce Investment Act of 1998 (WIA) to 
the WIOA provides an extraordinary opportunity to improve job and 
career options for our nation's jobseekers and workers, including 
veterans, through an integrated, job driven public workforce system 
that links diverse talent to businesses. While retaining the network of 
DVOP specialists at AJCs, WIOA strengthens accountability and 
transparency of outcomes for core programs, including establishing 
common performance indicators across these programs. The Department is 
considering the adoption of these new common performance indicators for 
JVSG and other VETS-administered programs, and strengthening ties 
between HVRP grantees and AJCs so that we will know with even greater 
detail the outcomes of our investments in veterans' employment and 
related programs.
H.R. 474 - ``HOMELESS VETERANS' REINTEGRATION PROGRAMS REAUTHORIZATION 
                              ACT OF 2015"
    The Department is pleased that the House passed H.R. 474, the 
``Homeless Veterans' Reintegration Programs Reauthorization Act of 
2015,'' which would reauthorize HVRP through 2020. Additionally, the 
bill would expand the eligibility for services under HVRP to include 
not only homeless veterans, but also veterans participating in VA- 
supported housing programs for which certain rental assistance is 
provided and veterans who are transitioning from being incarcerated.
    The Department supports the extension to the HVRP authorization. 
HVRP is one of the few nationwide federal programs focusing exclusively 
on helping homeless veterans to reintegrate into the workforce. HVRP is 
employment-focused; each participant receives customized services to 
address his or her specific barriers to employment. Services may 
include, but are not limited to, occupational, classroom, and on-the-
job training, as well as job search, placement assistance, and post-
placement follow-up services.
    As mentioned, H.R. 474 would expand eligible participants under 
HVRP. Veterans currently receiving housing assistance under the HUD-
Veterans Affairs Supportive Housing (VASH) program and Native American 
veterans participating in the Native American Housing Assistance 
program are not eligible for HVRP services. Under current legislative 
authority, approximately 78,000 veterans who participate in the HUD-
VASH program annually are ineligible for HVRP program's services 
because they are not, technically, homeless. VETS believes housing 
programs such as HUD-VASH are critical to the rehabilitation and 
success of homeless veterans because the availability of housing and 
health services improves their job readiness and employability.
    In addition, under H.R. 474, veterans who are transitioning from 
incarceration would also be eligible for HVRP's services. For veterans, 
having an arrest record is a major barrier to employment and can lead 
to homelessness. VETS believes it is critical to begin delivering 
employment support prior to their release in order to better prepare 
them to secure civilian employment.
    VETS supports the intent of expanding the eligible population for 
HVRP. However, to accommodate the proposed changes within existing 
funding, VETS would need to establish service priorities to reach those 
with the greatest needs and avoid duplication.
                               CONCLUSION
    We at the Department of Labor remain committed to the 
Administration's goal of ending veteran homelessness, and we look 
forward to working with the Subcommittee to ensure the continued 
success of our efforts. Chairman Wenstrup, Ranking Member Takano, and 
distinguished Members of the Subcommittee, this concludes my statement. 
Thank you again for the opportunity for VETS to provide input on the 
work we are conducting to help end veterans' homelessness.

                                 <F-dash>
                              STEPHEN PECK
    Additional recommendation: The need for service intensive 
transitional housing in our continuums.
    It is critical, as we reduce the number of veterans on our streets, 
that we retain the variety of interventions available to help veterans 
stabilize and reintegrate. There is no one answer or program that will 
satisfy the array of deficits we see among homeless veterans. We need 
to design a system that incorporates the most therapeutic, and most 
economical interventions that will result in the greatest stability and 
productivity.
    Service intensive transitional housing, characterized by the VA 
Grant and Per Diem Program (GPD), is one of these interventions, and 
should be available in every community as one weapon in our fight to 
reduce homelessness. This intervention complements other interventions 
that focus primarily on housing. Transitional housing, as U.S.VETS has 
designed it, includes eight different tracks according to the need of 
the veteran, ranging from ``Bridge Housing'' to longer term sobriety 
support, education and employment tracks. This fits comfortably in the 
Housing First model, which emphasizes client choice; and strengthens 
the availability of rehabilitation in the continuum.
    Transitional Housing is the most effective, and efficient, 
intervention for a variety of scenarios:

    <bullet>  A shortage of subsidized housing capacity in the 
community, i.e. too few housing/VASH vouchers
    <bullet>  Insufficient SSVF resources
    <bullet>  Client desire for treatment-based transitional housing, 
i.e. substance abuse treatment, military sexual trauma treatment, job 
training, etc.
    <bullet>  Readiness for rapid rehousing

    'We have gathered data which indicates that 40% of the clients in 
our GPD program are choosing service intensive transitional housing, 
most of them to access substance abuse treatment and employment 
services.
    The VA has indicated that the GPD program is likely to shrink by 
20% over the coming years, eliminating underutilized and 
underperforming programs. These resources should be reallocated to 
communities that have no, or too few, transitional housing beds, and 
have a demonstrated need for this resource.

                                 [all]
</pre></body></html>
